APPENDIX A

If this opinion indicates that it is “FOR PUBLICATION,” it is subject to
revision until final publication in the Michigan Appeals Reports.

STATE OF MICHIGAN
COURT OF APPEALS

DAX ELLIOT CARPENTER,

UNPUBLISHED
January 30, 2020

Plaintiff-Appellant,
v

No. 344512
Eaton Circuit Court
LC No. 2008-000929-DM

JULIE ELIZABETH CARPENTER,
Defendant-Appellee.

Before: O’BRIEN, P.J., and GADOLA and REDFORD, JJ.
PER CURIAM.
Plaintiff-father appeals1 the trial court’s order denying his motion to set aside a Uniform
Child Support Order (UCSO) that increased his child support obligation based on his receipt of
veterans’ disability benefits. The same order awarded defendant-mother $3,310.46 in sanctions,
including attorney fees and reasonable costs. We affirm.
I. BASIC FACTS
The parties were divorced in July 2009, following an eight-year marriage. Two children
were born during the marriage. The judgment of divorce granted the parties joint legal custody,
with defendant having sole physical custody of the children. At that time, the parties stipulated
to a UCSO indicating that plaintiff would pay $1,050 in child support monthly.
In 2010, defendant enlisted in the United States Army. Over the next two years, several
support recommendations were prepared by the Friend of the Court (FOC), but each was met

1

We note that the only portion of the order that is within the scope of an appeal of right is the
portion of the order awarding attorney fees and costs. However, given that plaintiff’s challenge
to the provisions concerning the child-support-related provisions is directly related to the award
of sanctions, we treat plaintiff’s claim of appeal as an application for leave, and we grant leave in
order to address the merits of plaintiff’s assertions.

1a

with objections. Thereafter, in September 2012, plaintiff was honorably discharged from the
Army at his request due to disability incurred while in the service and motioned the court to
recalculate his child-support obligation based on his part-time employment wages. Over a period
of nine months, plaintiff’s child support obligation was reduced by agreement of the parties to
$168 monthly effective January 2014.2 The UCSO also stated:
a. Defendant reserves the right to petition to modify the order retroactively
should it be determined that Plaintiff receives or is granted veteran’s benefits that
could have been included in his income under the child support formula and/or
veteran’s benefits that could be apportioned as child support.
Plaintiff personally agreed to this term as evidenced by his signature on the stipulations giving
rise to the UCSO.
Over the years, plaintiff built up an arrearage, and several show-cause hearings were
held. During those hearings, plaintiff denied applying for or receiving veterans’ benefits. It was
not until January 2017, when confronted with documentary evidence that he was awarded a
service-connected disability benefit, that plaintiff acknowledged receipt of benefits. However,
during the subsequent February 2017 show-cause hearing to determine whether plaintiff was in
contempt of court for failing to disclose the income, plaintiff would not disclose when he applied
for the benefits or when the benefits began. Nonetheless, at the time of the February 2017 showcause hearing, plaintiff agreed to petition the United States Department of Veterans Affairs (VA)
for an apportionment3 of those benefits and indicated that when that was resolved, the parties
would return to the court and work together to calculate retroactive support. However, plaintiff’s
request was denied by the VA, and the matter returned to the trial court in July 2017.
Plaintiff then acknowledged that he had applied for VA disability benefits in 2012 and
began receiving them in 2014. He confirmed that he had listed the parties’ minor children as
dependents on his application. He further indicated that the payment amounts varied over the
years, and he received some retroactive benefits. At that time, he was receiving $3,321 monthly
in VA disability benefits, and records provided by the VA indicated that he had received over
$131,000 in benefits through March 2017. Plaintiff also confirmed that the first time he
disclosed receiving VA benefits to the FOC was in January 2017. However, he denied
purposefully failing to disclose the VA benefits and argued that he should only be required to
pay child support based on his earned income.

2

The decrease in child support was effectuated through the entry of three different child support
orders with different effective dates, all entered on January 2, 2014.
3

Apportionment is the VA’s direct payment of the dependent's portion of VA benefits to a
dependent spouse, child, or dependent parent. The VA decides whether and how much to pay by
apportionment on a case-by-case basis. However, the request for apportionment must be
submitted by the beneficiary on the required form. See <https://www.benefits.va.gov › WARMS
› docs › admin21 › part3 › subptv>.

2a

Defendant asked for an order providing a retroactive increase in plaintiff’s child-support
obligation as agreed to in 2014. However, plaintiff filed a brief arguing that because he was not
eligible for retirement benefits, his service-connected disability compensation was not subject to
consideration for child support purposes under a variety of federal statutes. He posited that these
statutes barred the State of Michigan from enforcing child support obligations based on his status
as a non-retiree and explicitly excluded state-court jurisdiction over VA benefits. Further,
plaintiff argued that the power to apportion benefits fell to the VA, and defendant had not
requested an apportionment. According to plaintiff, this was the procedure outlined by the
Office of Child Support in Memorandum IM-98-03,4 and was the only available option for
defendant.
In August 2017, the FOC referee who had presided over the matter issued a proposed
order in which he found that plaintiff “willfully concealed over $130,000.00 in income for a
four-year period,” and that plaintiff “misled” both defendant and the court because he made false
statements during the show-cause proceedings and repeatedly refused to provide details about the
receipt of VA disability benefits during the February hearing. Further, after concluding that by
making those false statements, plaintiff had engaged in conduct that unreasonably protracted the
hearing and resulted in an inaccurate child support calculation, the referee indicated that he
believed plaintiff was subject to sanctions under MCR 2.114.5 The proposed order was entered
despite plaintiff’s objection, motivating him to file a motion to set aside the order.
Shortly thereafter, the FOC office issued recommendations related to the retroactive
modification of child support; however, defendant objected on the grounds that the calculations
did not take into account plaintiff’s earned income during the relevant times. Eventually, in
January 2018, the parties entered into a stipulated child support order reflecting the agreed-upon
retroactive modifications based on plaintiff’s wages and VA benefits. Within the stipulated
orders, the parties reserved the right to amend or modify based on plaintiff’s motion to set aside
the order and verification of plaintiff’s income and insurance premiums.
In support of the motion to set aside the order, plaintiff’s attorney continued to argue that
because plaintiff’s disability income was not based on retirement, Congress had protected
plaintiff’s benefits and that the federal statutes granting such protections preempted state statutes.
However, defendant’s counsel informed the court that the United States Supreme Court’s
decision in Rose v Rose, 481 US 619; 107 S Ct 2029; 95 L Ed 2d 599 (1987), had specifically
held that veterans’ disability benefits were susceptible to inclusion in child support calculations.
Although plaintiff’s attorney suggested that Rose had been superseded by Howell v Howell, ___
US ___; 137 S Ct 1400; 197 L Ed 2d 781 (2017), the trial court confirmed that Rose was still

4

We note that Memorandum IM-98-03 provides an alternative method for collection of benefits
through apportionment in cases such as these, where garnishment of VA benefits is prohibited,
but the support payer has not otherwise met their court-ordered obligation.
5

MCR 2.114 was repealed effective September 1, 2018, and it was substantially relocated to
current MCR 1.109(E). Former MCR 2.114(D)(1)-(3), (E), and (F) are identical to the current
versions of MCR 1.109(E)(5)(a)-(c), (6), and (7), respectively.

3a

good law before denying plaintiff’s motion to set aside the order and making the stipulated child
support orders, including the retroactive amounts, fully enforceable.
In addition, the trial court granted a request by defendant’s counsel for sanctions. The
court instructed defense counsel to present plaintiff’s counsel with a bill and indicated that if
there was a disagreement about the amount, that matter could be decided by the court.
Defendant filed a statement of costs outlining $3,310.46 for services provided, transcript costs,
mileage reimbursement, and postage costs, and plaintiff did not file any objections.
Accordingly, the trial court entered a judgment of sanctions for this amount.
II. CHILD SUPPORT ORDER
Plaintiff argues that the trial court erred in finding that it had jurisdiction and authority to
order modification of his child support orders based on his receipt of veterans’ disability
payments because federal law preempts those VA benefits that are not retired pay or in lieu of
retired pay from being subject to consideration for payment of child support or spousal support.
We disagree.
Modification of a child support order is within the trial court’s discretion and is reviewed
for an abuse of discretion. Clarke v Clarke, 297 Mich App 172, 178-179; 823 NW2d 318
(2012). An abuse of discretion occurs when the result is outside the range of reasonable and
principled outcomes. Woodington v Shokoohi, 288 Mich App 352, 355; 792 NW2d 63 (2010).
The parents of a minor child have a duty to support that child. MCL 722.3; Paulson v
Paulson, 254 Mich App 568, 571; 657 NW2d 559 (2002). The purpose of support is to ensure
that a child’s immediate needs are met on a continuing basis. Milligan v Milligan, 197 Mich
App 665, 667; 496 NW2d 394 (1992). MCL 552.605(2) provides that unless an exception
applies, “the court shall order child support in an amount determined by application of the child
support formula developed by the state friend of the court bureau as required in section 19 of the
friend of the court act, MCL 552.519.” As relevant to this case, under the 2017 Michigan Child
Support Formula Manual, “veterans’ administration benefits” are a source of income to be
considered by the trial court to calculate a parent’s income for child support purposes. 2017
MCSF 2.01(C).
Further, “[w]hen determining whether federal law preempts a state statute, this Court
must look to congressional intent.” American Med Security, Inc v Allstate Ins Co, 235 Mich App
301, 305; 597 NW2d 244 (1999). Our United States Supreme Court has clarified that
traditionally, “domestic relations is . . . the domain of state law.” Hillman v Maretta, 569 US
483, 490; 133 S Ct 1943; 186 L Ed 2d 43 (2013). “There is therefore a ‘presumption against preemption’ of state laws governing domestic relations . . . .” Id., quoting Egelhoff v Egelhoff, 532
US 141, 151; 121 S Ct 1322; 149 L Ed 2d 264 (2001). “[F]amily and family-property law must
do ‘major damage’ to ‘clear and substantial’ federal interests before the Supremacy Clause will
demand that state law will be overridden.” Id. at 490-491, quoting Hisquierdo v Hisquierdo, 439
US 572, 581; 99 S Ct 802; 59 L Ed 2d 1 (1979).
Applying these principles, in Rose, 481 US 619, the United States Supreme Court
previously addressed expressly whether federal law preempted state law permitting the

4a

consideration of veterans’ disability benefits as “income” for purposes of calculating support. In
Rose, Mr. Rose, a totally disabled veteran of the Vietnam War, had income composed entirely of
benefits received from the VA and the Social Security Administrations, and the trial court
considered both benefits to calculate his child support obligations under Tennessee law. Id. at
622. When Mr. Rose was held in contempt for failure to pay his support obligation, he argued
that 38 USC 3101(a) preempted a state court’s jurisdiction over veterans’ disability benefits and
a state court’s ability to enforce child support obligations. Id. at 630. Mr. Rose reasoned that
only the VA could order him to pay child support with his disability benefits and that the state
had no jurisdiction over those benefits. Id. at 623. Mr. Rose also argued that 42 USC 659(a)
“embodies Congress’ intent that veterans’ disability benefits not be subject to any legal process
aimed at diverting funds for child support . . . .” Id. at 635.
The United States Supreme Court disagreed, stating, “Neither the Veterans’ Benefits
provisions of Title 382 nor the garnishment provisions of the Child Support Enforcement Act of
Title 423 indicate unequivocally that a veteran’s disability benefits are provided solely for that
veteran’s support.” Id. at 636. Further, the United States Supreme Court determined that
Congress intended veterans’ disability benefits “to provide reasonable and adequate
compensation for disabled veterans and their families,” id. at 630 (quotation marks and citation
omitted), and that veterans’ disability benefits were “to be used, in part, for the support of
veterans’ dependents,” id. at 631. Accordingly, the United States Supreme Court concluded that
the state law, pursuant to which Mr. Rose’s veterans’ disability benefits were considered to
determine his child support obligation, was not preempted by federal law. Id. at 636.
The analysis in Rose has since been accepted and applied in numerous state courts that
have addressed the issue. See, e.g., Lambert v Lambert, 10 Va App 623; 395 SE2d 207 (1990);
Goldman v Goldman, 197 So 3d 487 (Ala Civ App, 2015); Belue v Belue, 38 Ark App 81; 828
SW2d 855 (1992); and Casey v Casey, 79 Mass App 623; 948 NE2d 892 (2011). We agree that
it is also applicable to this case.
In this case, plaintiff cites many of the same federal statutes that were rejected as
controlling in Rose. However, he attempts to distinguish his circumstances from those in Rose
by arguing that he does not receive his compensation as a result of waiving retirement or retainer
pay, whereas the plaintiff in Rose was eligible for payments as a retiree. More specifically,
plaintiff argues that after Rose, Congress decided that the only compensation subject to child
support under 42 USC 659 is “for a service-connected disability paid by the Secretary to a
former member of the Armed Forces who is in receipt of retired or retainer pay if the former
member has waived a portion of the retired or retainer pay in order to receive such
compensation.” 42 USC 659(h)(1)(A)(ii)(V). Accordingly, he posits that as a disabled veteran
who is not eligible for retired pay, his compensation is specifically excluded from consideration
under 42 USC 659(h)(1)(B)(iii), which excludes periodic benefits under title 38, except for the
narrow exception carved out by 42 USC 659(h)(1)(A)(ii)(V). However, this argument is without
merit.
First, we note that 42 USC 659 does not contain any language that precludes a state court
from including VA disability benefits in plaintiff’s income to determine the level of child support
he is required to pay, nor does it discuss the computation of child support at all. Rather, the
statute addresses the use of various collection methods for the enforcement of child support or

5a

alimony orders when the support payer is compensated by the United States, District of
Columbia, or Armed Forces. 42 USC 659(a). In this case, the trial court was not addressing the
question of how defendant’s disability payments could be levied or garnished; therefore, any
restriction on the enforcement methods used to collect child support is irrelevant to this appeal.
Indeed, as plaintiff indicated before the lower court, the Office of Child Support has previously
acknowledged that there exist restrictions on the enforcement of unpaid child support obligations
upon benefits paid by the VA and that such enforcement may be limited to apportionment.
However, that plaintiff’s benefits cannot be garnished is not dispositive of whether they can be
considered for the purpose of calculating child support obligations.
Additionally, at the trial level, plaintiff argued that the United States Supreme Court’s
decision in Howell, ___ US ___; 137 S Ct 1400, overturned Rose and supported his assertion that
veterans’ disability benefits are not subject to division by state courts. Plaintiff has not raised the
same argument on appeal, but rather he now indicates that Howell supports the proposition that
veterans’ disability funds remain expressly protected under 38 USC 5301(a)(1), leaving state
courts without any authority to enter an order affecting these benefits. However, this argument
also lacks merit because the Howell decision says nothing about the propriety of a state court’s
consideration of such benefits in calculating an award of child support. Rather, Howell
addressed only the treatment and division of military disability benefits as “property” in divorce,
not as income used to support a veteran’s dependents. Id. at ___; 137 S Ct at 1403-1406.
Accordingly, we disagree with plaintiff’s contention that the Howell decision had any impact on
the viability of the Rose decision. This is further buttressed by the fact that after the United
States Supreme Court released its ruling in Howell in 2017, several state courts continued to hold
that veterans’ disability benefits could be considered as income for child support purposes. See,
e.g., Lesh v Lesh, ___ NC App ___; 809 SE2d 890 (2018); Nieves v Iacono, 162 App Div 3d
669; 77 NYS2d 493 (2018).
Plaintiff also claims that 10 USC 1408 provides that a portion of veterans’ disability
benefits can be considered toward the calculation of child support obligations only “in certain
specific cases.” However, he cites no statutory language within 10 USC 1408 that expressly
limits such consideration, and no such language is present within the statute. Further, plaintiff
cites no authority to support his interpretation of the statute. We also note that 10 USC 1408,
also known as the “Uniform Services Former Spouses’ Protection Act,” addresses the process for
enforcing court orders for property division or support when a party receives retirement pay.
However, it does not at any point discuss the process for calculation of such court orders or any
limitations on the calculation of those orders. Moreover, as plaintiff repeatedly points out in his
appellate brief, he does not receive retirement pay. Accordingly, the provisions of 10 USC 1408
have no application in this case.
In whole, we are not persuaded by plaintiff’s argument that federal law preempts state
law allowing his VA benefits to be considered for the purpose of calculating his child support
obligation. Moreover, given the United States Supreme Court’s decision in Rose, we conclude
that the trial court did not abuse its discretion when it concluded that plaintiff’s VA benefits were
properly considered as income for the purpose of child support calculations.
III. SANCTIONS

6a

Plaintiff further posits that because the arguments he advanced to the trial court had legal
merit, the award of sanctions should be voided. We disagree.
A determination of whether a claim is frivolous depends upon the particular
circumstances of each case. Kitchen v Kitchen, 465 Mich 654, 662; 641 NW2d 245 (2002). A
trial court’s finding whether a claim or defense was frivolous will not be reversed on appeal
unless clearly erroneous. Id. at 661. A finding is clearly erroneous when, although there is
evidence to support it, the reviewing court is left with a definite and firm conviction that a
mistake was made. Id. at 661-662. Further, the trial court’s determination of the amount of
sanctions imposed is reviewed for an abuse of discretion. Vittiglio v Vittiglio, 297 Mich App
391, 408; 824 NW2d 591 (2012). “An abuse of discretion occurs when the court’s decision is
outside the range of reasonable and principled outcomes.” Smith v Khouri, 481 Mich 519, 526;
751 NW2d 472 (2008).
A party pleading a frivolous claim is subject to costs and attorney fees as sanctions.
MCR 1.109(E)(7);6 MCR 2.625(A)(2); MCL 600.2591(1). Further, the trial court may also
award attorney fees “when the requesting party has been forced to incur expenses as a result of
the other party’s unreasonable conduct in the course of litigation.” Hanaway v Hanaway, 208
Mich App 278, 298; 527 NW2d 792 (1995).
An action is considered frivolous when at least one of the following is true:
(i) The party’s primary purpose in initiating the action or asserting the
defense was to harass, embarrass, or injure the prevailing party.
(ii) The party had no reasonable basis to believe that the facts underlying
that party’s legal position were in fact true.
(iii) The party’s legal position was devoid of arguable legal merit. [MCL
600.2591(3)(a).]
Under MCL 600.2591, upon motion of a party, if the court determines that a civil action
or defense was frivolous, the court must award the costs and fees incurred by the prevailing
party, MCL 600.2591(1), including “all reasonable costs actually incurred by the prevailing party
and any costs allowed by law or by court rule, including court costs and reasonable attorney
fees,” MCL 600.2591(2). The party against whom sanctions are sought must be afforded
reasonable notice and an opportunity to be heard. Vittiglio, 297 Mich App at 405.

6

The trial court did not indicate which court rule it applied when it concluded that sanctions
were warranted in this case. However, the referee had originally suggested in his
recommendation that sanctions were warranted under MCR 2.114. As previously noted, MCR
2.114 was repealed effective September 1, 2018, and it was substantially relocated to current
MCR 1.109(E). Former MCR 2.114(D)(1)-(3), (E), and (F) are identical to the current versions
of MCR 1.109(E)(5)(a)-(c), (6), and (7), respectively.

7a

In determining reasonable attorney fees, a court must consider: “(1) the professional
standing and experience of the attorney; (2) the skill, time and labor involved; (3) the amount in
question and the results achieved; (4) the difficulty of the case; (5) the expenses incurred; and (6)
the nature and length of the professional relationship with the client.” Wood v Detroit Auto
Inter-Ins Exch, 413 Mich 573, 588; 321 NW2d 653 (1982) (quotation marks and citation
omitted). “[A]ctual fees charged are not necessarily reasonable fees.” Vittiglio, 297 Mich App
at 410. The burden of proving the reasonableness of the fees is on the party requesting them. Id.
at 409.
In this case, plaintiff does not argue that the amount of sanctions or attorney fees awarded
was unreasonable. Rather, plaintiff’s argument is based on his assertion that the arguments he
advanced to the trial court had legal merit, and therefore, the award of sanctions should be
voided. However, as discussed above, plaintiff’s position is unsupported by any of the federal
laws or cases he has cited. Moreover, given the United States Supreme Court’s decision in Rose,
plaintiff’s position was devoid of arguable legal merit. MCL 600.2591(3)(a)(iii). Accordingly,
the trial court did not clearly err by concluding that plaintiff’s arguments were frivolous.
Further, despite agreeing in 2014 that his child support was subject to modification if he
qualified for VA benefits, plaintiff failed to disclose his VA benefits until January 2017.
Plaintiff had also denied receiving these benefits during prior court proceedings. Indeed, it was
not until he was confronted with documentation showing the amounts and dates of payments he
received that plaintiff admitted to receipt of the benefits. This kind of unreasonable and
disingenuous conduct warrants an award of sanctions. Accordingly, we find that the trial court
did not abuse its discretion in awarding defendant sanctions.
Affirmed.

/s/ Colleen A. O’Brien
/s/ Michael F. Gadola
/s/ James Robert Redford

8a

APPENDIX B

Order

Michigan Supreme Court
Lansing, Michigan

September 8, 2020

Bridget M. McCormack,

Chief Justice

161111

David F. Viviano,

Chief Justice Pro Tem

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

DAX ELLIOT CARPENTER,
Plaintiff-Appellant,
v

SC: 161111
COA: 344512
Eaton CC: 2008-000929-DM

JULIE ELIZABETH CARPENTER,
Defendant-Appellee.
_________________________________________/

On order of the Court, the application for leave to appeal the January 30, 2020
judgment of the Court of Appeals is considered, and it is DENIED, because we are not
persuaded that the questions presented should be reviewed by this Court.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
September 8, 2020
p0831

Clerk

9a

Justices

APPENDIX C

Order

Michigan Supreme Court
Lansing, Michigan

November 24, 2020

Bridget M. McCormack,

Chief Justice

161111(88)

David F. Viviano,

Chief Justice Pro Tem

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

DAX ELLIOT CARPENTER,
Plaintiff-Appellant,
v

SC: 161111
COA: 344512
Eaton CC: 2008-000929-DM

JULIE ELIZABETH CARPENTER,
Defendant-Appellee.
_________________________________________/

On order of the Court, the motion for reconsideration of this Court’s September 8,
2020 order is considered, and it is DENIED, because we are not persuaded that
reconsideration of our previous order is warranted. MCR 7.311(G).

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
November 24, 2020
a1116

Clerk

10a

Justices

APPENDIX D

11a

12a

State of Michigan
In the Family Court for the County of Eaton

Dax E. Carpenter,
Proposed Referee's Order and Notice of
Submission of Order Pursuant to
MCR 3.215(E)

Plaintiff,
v

Julie E. Carpenter,
Case No.: 08-929-DM
Hon. John D. Maurer

Defendant.
Joel Mendoza (P69557)
Attorney for Plaintiff
7201 W. Saginaw Highway, 302
Lansing, Michigan 48908
Lawrence Emery (P23263)
Attorney for Defendant
924 Centennial Way. Suite 470
Lansing, Michigan 48917

At a session of saild Court
held on the
, = day of
September, 2017
Present: John D. Maurer, Circuit Court Judge
History of the Matter

On numerous occasions, the Friend of the Court scheduled Show Cause
Hearings to enforce the court's child support orders regarding this matter. Plaintiff
father, on numerous occasions, did not disclose his disability income as a source of
income to the Friend of the Court. Ultimately, when confronted by Counsel for
Defendant at one of the Show Cause Hearings, Plaintiff father finally acknowledged he

13a

has been receiving disability income. When questioned by the Referee as to why
Plaintiff father failed to disclose the disability income to the Friend of the Court, Plaintiff
father stated he was advised by Child Support Enforcement Worker Luci Sharp that
disability income was not considered income by the Friend of the Court. Child Support
Caseworker Luci Sharp testified before the Referee that she does not recall ever
making that statement to Plaintiff father.

After discussing the matter with the parties, the Referee believes the matter had
been resolved. The Referee believed that the parties would recalculate Plaintiff father's
child support obligation, incorporating his disability income for purposes of utilizing the
Michigan Child Support Guidelines.
Thereafter, it became evident that Plaintiff father was still claiming, in some
fashion, that his disability income should not be included in his income for purposes of
calculating his child support obligation.
Ultimately, the Referee and the parties agreed that each party would draft a brief
with the facts and law that supported their respective positions, and the Referee would
issue an opinion regarding the matter.
Plaintiff father filed his brief on July 31, 2017. Pursuant to the agreement of the
parties, Defendant mother would have seven additional days to file a Response Brief.
On August 7, 2017, Counsel for Defendant mother filed his Response Brief, with
the Referee's opinion to be submitted within 21 days, or by August 28, 2017.
Discussion and Analysis
The issue involved in this case is simply whether or not veterans' benefits are

2

14a

considered income for the purposes of the application and utilization of the Michigan
Child Support Formula. Plaintiff father claimed that veteran's benefits are not
considered income for the purposes of the Michigan Child Support Formula.
Defendant mother claimed that veteran's benefits are considered income for the
purposes of the utilization and application of the Michigan Child Support Formula.
The Referee finds that the answer is quite simple. Veteran's benefits are considered
income for the purposes of the utilization and application of the Michigan Child Support
Formula.
The Michigan Child Support Formula Manual (2017 MCSF) directs that income

shall be defined and determined in Chapter 2 of the manual as follows:

2.01(A) The term "net income" means all income minus the
deductions and adjustments permitted by this manual. A parent's "net
income" used to calculate support will not be the same as that person's
take home pay, net taxable income, or similar terms that describe
income for other purposes.
2.01(B) The objective of determining net income is to establish, as
accurately as possible, how much money a parent should have available
for support. All relevant aspects of a parent's financial status are open
for consideration when determining support.
2.01(C) Income includes, but is not limited to, the following:
(1) Wages, overtime pay, commissions, bonuses, or other monies
from all employers or as a result of any employment (usually, as
reported in the Medicare, wages, and tips section of the parent's W-2).
(2) Earnings generated from a business, partnership, contract,
self-employment, or other similar arrangement, or from rentals. §2.01(E).
(a) Income (or losses) from a corporation should be carefully examined
to determine the extent to which they were historically passed on to the
parent or used merely as a tax strategy.
(3) Distributed profits or payments from profit-sharing, a pension
or retirement, an insurance contract, an annuity, trust fund, deferred
3

15a

compensation, retirement account, social security, unemployment
compensation, supplemental unemployment benefits, disability
insurance or benefits, or worker's compensation.
(a) Consider insurance or other similar payments received as
compensation for lost earnings, but do not count payments that
compensate for actual medical bills or for property loss or damage. 2017
Michigan Child Support Formula Manual—Chapter 2: Determining
Income Page 6 State Court Administrative Office
(b) If retired parent receives payments from an IRA, defined
contribution, or deferred compensation plan, income does not include
contributions to that account that were previously considered as the
parent's income used to calculate an earlier child support obligation for
a child in this case.
(4) Military specialty pay, allowance for quarters and rations,
housing, veterans' administration benefits, G.I. benefits (other than
education allotment), or drill pay. (empahasis added).
2017 MCSF(C)(4) clearly directs that Veterans Administration Benefits are to

be utilized as income for the purposes of the Michigan Child Support Formula.
Plaintiff father cryptically continues to argue that for some administrative purpose, the
federal government has determined that Veterans Administration benefits potentially
should be apportioned with the result that some or all of the benefit should not be
utilized as income when calculating Plaintiff father's child support obligation to
Defendant mother.
The Referee finds Plaintiffs argument inapplicable, unsupported, confusing,
legally-contorted, and totally unpersuasive of the position Plaintiff father efforts to
prove.
The Referee was led to believe that Plaintiff father was to produce the
definitive statement of controlling law that would prevent the Eaton County Friend of
the Court from utilizing Plaintiff father's Veterans Benefit as income for child support
purposes. Despite that assurance, the Referee is left with Plaintiff father's apparent
4

16a

position that he simply wants to retain the entirety of his veteran's benefit as his sole
property, for the sole benefit of himself, as apparently he has done since May 12,
2013.
The Referee finds Plaintiffs argument is based on nothing more than a selfish,
self-serving desire to avoid being responsible for and paying any meaningful child
support to Defendant mother for the support of the parties' minor child.
Plaintiff has made a rather confusing claim, seemingly suggesting that the
state of Michigan cannot enter an order in the absence of an apportionment ruling,
made by the Secretary of the Department of Veterans Affairs. The Referee is not
aware of any such apportionment ruling in this case, and moreover is not aware of
any ruling that is contrary to the enforcement of a child support obligation based on
and utilizing Plaintiffs Veteran's benefits. In fact, Plaintiff father presented a letter
from the Veterans Administration, dated July 3, 2017, denying a request for
apportionment.
Plaintiff father has failed to provide any persuasive argument that disability
benefits are exempted from inclusion in Plaintiffs income for the purposes of
calculation of his child support obligation.
The Referee believes the bulk of Plaintiff father's brief and the authority cited
by Plaintiff father are inapplicable and irrelevant to this proceeding.
Counsel for Defendant claimed that evidence provided to the Referee supports
that Plaintiff father willfully concealed over $130,000 in income over a four-year
period. The Referee concurs with that statement. Plaintiff provided neither a

5

17a

reasonable nor excusable explanation for failing to disclose the receipt of that income.
Counsel for Defendant claimed that by signing the Uniform Child Support
Order that reduced his income, Plaintiff father attested to the accuracy of the income
information upon which that order was based. The Referee concurs with that claim.
Simply but, Plaintiff father has refused to provide an honest statement and
disclosure of his income, but rather misrepresented and misled Plaintiff mother and
the court about the true amount of his actual income. Plaintiffs claim that he received
errant information from Friend of the Court staff was totally unpersuasive.
Plaintiffs credibility was hardly bolstered by his false statements made to the
Referee as well as his curious and repeated use of the 5th Amendment to avoid
honestly answering questions regarding his veteran's benefits during the Referee
Hearing.
Moreover, the Referee finds that Plaintiff father failed to honestly disclose his
income for a protracted period of time to the Friend of the Court, which induced and
caused the Friend of the Court to rely on his assertions, resulting in an unreasonably
inaccurate child support order. Accordingly, the Referee believes pursuant to MCL
552.603(b), Plaintiff father's child support obligation should be retroactively
corrected.
Furthermore, based on Plaintiff father's false statements and conduct which
has unreasonably protracted these proceedings, the Referee believes Plaintiff is
subject to sanctions pursuant to MCR 2.114.
Order

6

18a

Based on the foregoing, the Referee believes the entry of the following order is
appropriate:

IT IS ORDERED:
1. The Veterans disability benefits received by Plaintiff father since May
12, 2013 are includable in his income for purposes of calculating
Plaintiff father's child support obligation utilizing the Michigan Child
Support Guidelines
2. The calculation of Plaintiff father's child support obligation shall be
based on the Veterans disability income received by Plaintiff father
retroactive to May 12, 2013. The Referee specifically finds that Plaintiff
father intentionally misrepresented and intentionally failed, refused
and/or neglected to disclose the true nature of his income since that
date. Moreover, the Referee believes Plaintiff father conceded to
retroactive application of the correct amount of his income for
purposes of the calculation of his child support obligation.
3. The correspondence provided by the Veteran's Administration
detailing the amount of Veterans disability benefits received by Plaintiff
father shall be used to determine the actual total income received from
May 12, 2013 to the present for purposes of calculating Plaintiff
father's child support obligation, utilizing the Michigan Child Support
Guidelines.
4. The Uniform Child Support Order entered by the court shall include a

7

19a

determination of the appropriate amount of child support arrearages
owed by Plaintiff father, and a schedule to repay the same.
5. To effect the award of sanctions against Plaintiff father pursuant to
MCR 2.114, Counsel for Defendant mother shall prepare and submit a
statement to Plaintiff and the Friend of the Court stating the amount of
hours he has expended representing Defendant mother regarding this
child support matter. The Referee shall then issue a separate
proposed order regarding MCR 2.114 sanctions under the 21 day rule.
6. Except as specifically modified by this order, the terms and conditions
of the prior orders of the court sha

John

aurer,

in full force ancleffect.

udge

pproved by: L—

Allen
loss• erg,
Eaton County Family Court Referee
Notice of Submission of Order for Entry
The Parties have twenty-one (21) days to file a written Objection to this
Recommended Order with the Clerk of the Court, with a copy of the Objection served
to the opposing Party and the Friend of the Court. If neither Party files an Objection
with the Court, this Recommended Order shall remain as the Order of the Court
pursuant to MCR 3.215(E).
Pursuant to MCR 3.215(E)(5), the party who requests a judicial hearing
must draft and serve the Objection and a notice of hearing (after first obtaining a
hearing date from the office of the judge assigned to the case) on the opposing
party or counsel representing the opposing party in the manner provided in MCR
2.119(C), that provides such items must be served as follows: (a) at least 9 days
before the time set for the hearing, if served by mail, or (b) at least 7 days before
the time set for the hearing, if served by delivery under MCR 2.107(C)(1) or (2).

8

20a

An objecting party must also order the transcripts of the Referee Hearing
during the above referenced 21-day time limit. The transcripts of the Referee
Hearing may be ordered by contacting Luci Sharp, (517) 543-7500, x1319. The
objecting party will need to file a statement with the Objection and notice of
hearing stating the date the objecting party actually ordered the transcripts of the
Referee Hearing regarding the order that is being objected to.
The objecting party must also file a Proof of Service with the Clerk of the
Court stating that a copy of the Objection, notice of hearing, and statement of
ordering transcript has been served, and on what date, to the other party and the
Friend of the Court.
Pursuant to MCR 3.215(E)(4), the objection must include a clear and
concise statement of the specific findings or application of law to which an
objection is made. Objections regarding the accuracy or completeness of the
recommendation must state with specificity the inaccuracy or omission.
If an Objection is properly and timely filed by either party, the matter shall be
heard before the Judge assigned to the case.

CERTIFICATE OF MAILING
I hereby certify that on this date I mailed a copy of the foregoing Referee's
Order to the Parties at the addresses as stated above by U.S. mail.
August

, 2017

001 )1/0

a A.A.A.

Jenna Harris, Office Manager

Plaintiff father's Brief Due: 7/31/17
Defendant mother's Response Brief due: 8/7/17
Referee Order due: 8/28/17
Referee Order completed: 8/28/17
21-day Objection Due 09- 1 01 -

9

21a

STATE OF MICHIGAN
IN THE 56TH CIRCUIT COURT FOR THE COUNTY OF EATON
DAX E. CARPENTER,
Plaintiff.

BRIEF

v.

Case No. 08-929-DM

JULIE E. CARPENTER,
Hon. John D. Maurer
Defendant.
___________________________________________________________________________
Joel Mendoza (P69557)
Lawrence Emery (P23263)
Attorney for Plaintiff
Attorney for Defendant
7201 W. Saginaw Hwy, 302
924 Centennial Way, Ste 470
Lansing, MI 48908
Lansing, MI 48917
(517) 862-8023
(517) 337-4866
__________________________________________________________________________
PLAINTIFF’S TRIAL BRIEF
1.

45 Code of Federal Regulations § 302.56 provides guidelines for setting child support

awards. Pursuant to any judicial or administrative proceeding for the award of child support, that
the amount of the award which would result from the application of the 2017 MSCF for both
setting and modifying child support award amounts is the correct amount to be awarded and shall
state the amount of support that would have been required under appropriate and just procedural
due process guidelines and include the required justification proof.
2.

Mr. Dax Carpenter is a former U.S. Army PFC who served his country honorably for

almost three years.
Pursuant to 38 CFR 3.750(a) "Definition of military retired pay.
For the purposes of this part, military retired pay is payment received by a veteran that is
classified as retired pay by the Service Department, including retainer pay, based on the
recipient's service as a member of the Armed Forces". Mr. Carpenter was unable to serve the
required 20 year minimum to qualify for military retired pay. By definition, he did not waive a

22a

portion of military retired pay in order to receive his Department of Veterans Affairs (VA)
service-connected disability compensation benefit award. Mr. Carpenter is a 100% disabled
veteran since 2013; therefore, as legally defined in the Uniformed Services Former Spouses'
Protection Act of 1982 ("USFSPA") at 10 U.S.C. § 1408(a)(4)(B), his Title 38 disposable
retired pay is $0.00 for compliance with any child support consideration by the State of Michigan.
and does show a congressional intent to exempt such benefits from a contentious legal process
outside the exclusive jurisdiction of the VA courts as established in the Veterans' Judicial
Review Act of 1988.
USFSPA does not grant state courts the power to award any of the items deducted from
gross retired pay such as VA disability benefits. See Mansell v. Mansell 490 U.S. at 594-95.
Also, 5 CFR 581.103(c)(7) prohibiting the State of Michigan from garnishing a VA disability
compensation benefits award.
3.

Barred consent from a VA disability compensation benefits award is further confirmed

in DD Form 2293, APPLICATION FOR FORMER SPOUSE PAYMENTS FROM RETIRED
PAY.
This Form governs an application for direct payment from retired pay of a Uniformed
Service member in response to court ordered division of property, Child Support or Alimony as
applied under the authority of 10 USC 1408."
“...I hereby acknowledge that any payment from me must be paid from disposable
retired pay as defined by the statute and implementing regulations....”
4. 42 U.S.C. § 659(a) & (h)(1)(B)(iii) bars consent of the United States to income
withholding, garnishment, and similar proceedings for enforcement of child support obligations
by a State to any of a Service Member’s service-connected disability compensation benefit
award provisioned by the Secretary of the Department of Veterans Affairs that has not been
waived in lieu of retired or retainer pay in order to receive such compensation. See 42 U.S.C. §
659(h)(1)(A)(ii)(V) – Attached.
Since Mr. Carpenter has never waived a portion of military retired pay in order to
receive his service connected VA disability benefits, his service-connected disability is NOT

23a

based on his earnings records, retired pay or retainer pay – a differentiation that was emphasized
and added to the 2017 MCSF §2.01(I). The 2017 MCSF reads as “disposable income”
5.

5 C.F.R. §§ 581.102 & 581.401 as well as 15 U.S.C. §§ 1672 & 1673 establishes that

the disposable earnings, when used in reference to the amounts due from, or payable by, the
United States or the District of Columbia which are garnishable under the Federal Consumer
Credit Protection Act for child support, are the obligor's remuneration for employment.
Mr. Carpenter’s VA disability benefits award is not premised upon remuneration for
employment, it is not "compensation paid or payable for personal services" and so does not count
toward his disposable earnings.
26 U.S.C. § 104(b)(2)(D) also codifies his VA disability compensation as "not gross

6.
income".

__________________________________________________________

ROSE V. ROSE, 481 U. S. 619 (1987) - REBUTTAL
7.

From the U.S. Supreme Court ruling of ROSE V. ROSE, 481 U. S. 619 (1987), the late

Associate Justice Antonin Scalia, concurring in part and concurring in the judgment, writes "I
would not reach the question whether the State may enter a support order that conflict with an
apportionment ruling made by the Administrator [now Secretary of the Department of Veterans
Affairs], or whether the Administrator may make an apportionment ruling that conflicts with a
support order entered by the State. Ante, at 627. Those questions are not before us, since the
Administrator has made no such ruling." ... "I am not persuaded that if the Administrator makes
an apportionment ruling, a state court may enter a conflicting child support order. It would be
extraordinary to hold that a federal officer's authorized allocation of federally granted funds
between two claimants can be overridden by a state official." Page 481 U.S. 641
8.

Justice Scalia continues, "I also disagree with the Court's construction of 38 U.S.C.

211(a), which provides that '[d]ecisions of the Administrator on any question of law or fact under
any law administered by the Veterans' Administration providing benefits for veterans and their
dependents . . . shall be final and conclusive and no other official or any court of the United
States shall have power or jurisdiction to review any such decision.' The Court finds this [§ 211]

24a

inapplicable because it does not explicitly exclude state-court jurisdiction, as it does federal; ante,
at 629." Ibid.
9.

Justice Scalia continues, "Had the Administrator granted or denied an application to

apportion benefits, state court action providing a contrary disposition would arguably conflict
with the language of § 211 making his decisions 'final and conclusive' -- and, if so, would, in his
view, be preempted, regardless of the Court's perception that it does not conflict with the
'purposes' of § 211. But there is absolutely no need to pronounce upon that issue here. Because
the Administrator can make an apportionment only upon receipt of a claim, Veterans'
Administration Manual M21-1, ch. 26, § 26.01 (Aug. 1, 1979), and because no claim for
apportionment of the benefits at issue here has ever been filed, the Administrator has made no
'decision' to which finality and conclusiveness can attach." ... "The Court again expresses views
on a significant issue that is not presented." Page 642.
10.

It is very remarkable here that immediately following the noted Rose deficiencies, U.S.

Congress passed The Department of Veterans Affairs Act of 1988 (Pub.L. 100–527)
transforming the former Veterans Administration into a Cabinet-level Department of Veterans
Affairs. It was signed into law by President Ronald Reagan on October 25, 1988. And as
previously mentioned, the previously noted Veterans' Judicial Review Act of 1988 granted
exclusive jurisdiction of the VA Apportionment Claim process within the newly created federal
court system and Title 38 § 211 was amended to overcome the noted lacking exclusivity
language. Congress subsequently codified § 211 as § 511 in 1991 to properly engross
"Secretary" language consistent with the new Department of Veterans Affairs Act. 38 U.S. Code
§ 511 now explicitly excludes state-court jurisdiction.
11.

Most noteworthy, 38 U.S.C. § 511 is the Decisions of the Secretary; finality and such

decisions lie solely with the Secretary of the Department of Veterans Affairs, not the State of
Michigan. Section 511(a) was signed into the U.S. Code four years after the Rose decision. Pursuant
to the Secretary's authority in 38 U.S.C. §§ 511(a) & 5307 and 38 CFR Sections 3.450-3.458:
“The Secretary shall decide all questions of law and fact necessary to a decision by the
Secretary under a law that affects the provision of benefits by the Secretary to veterans or

25a

the dependents...of veterans...the decision of the Secretary as to any such question shall
be final and conclusive and may not be reviewed by any other official or by any court,
whether by an action in the nature of mandamus or otherwise." (emphasis added)

12.

Another noteworthy shortcoming discussed in the Rose case; "the implementing

regulations, which simply authorize apportionment if “the veteran is not reasonably discharging
his or her [child support] responsibility…”, contain few guidelines for apportionment and no
specific procedures for bringing claims. Page 481 U.S. 619. And continuing, "it seems certain
that Congress would have been more explicit had it meant the VA's apportionment power to
displace state court authority." Pages 619-620
13.

Those sparse guidelines were resolved in 1998 when Federal Commissioner for the

Office of Child Support Enforcement (OCSE), David Gray Ross, published Information
Memorandum IM-98-03, with Congressional oversight, to every state and commonwealth Title
IV-D Agency. IM-98-03 is entitled Financial Support for Children from Benefits Paid by
Veterans Affairs and is a Federal OCSE policy directive that now instructs state OAG - Child
Support Division’s on how to properly submit a claim for apportionment to the Department of
Veterans Affairs for those veterans whose benefits are legally defined, during due process, as
“not remuneration for employment“.
There are four specific instructions for proper submission of a VA Apportionment
claim; VA FORM 21-0788: INFORMATION REGARDING APPORTIONMENT OF
BENEFICIARY'S AWARD, to be followed are:
1. The IV-D agency (state child support enforcement office) should write the Department of
Veterans Affairs using agency letterhead to request an apportionment review. The letter should
be signed by both the appropriate IV-D official and the custodial parent. The letter should be
addressed to the VA Regional Office servicing that veteran’s benefits. Use the toll free number
to determine which regional VA office is appropriate (1-800-827-1000).
2. Complete and attach VA Form 21-4138 "Statement in Support of Claim." The normal VA
procedure is to request this after receiving an apportionment application, so time can be saved
by doing this as part of the first step. This is where information regarding income and net worth
may be provided.
3. Attach a copy of the current support order, to assist VA in the development of the
apportionment award.
4. Attach a copy of the arrearage determination sheet, payment ledger, payment records, etc.

26a

14.

Pursuant to 38 CFR 3.458, Veteran’s benefits will not be apportioned: (g) "If there

are any children of the veteran not in his or her custody an apportionment will not be authorized
unless and until a claim for an apportioned share is filed in their behalf."
15.

What's more and from 1997, the VA Office of General Counsel Precedent Opinion,

4-97, holds that a regional office must not consider a state court support order as an
apportionment claim. Additional findings of OGC 4-97:
"11. Pursuant to 38 U.S.C. § 7104(a), the Board has jurisdiction to review [a]ll
questions in a matter which under section 511(a) of this title is subject to decision by the
Secretary. Section 511(a) authorizes the Secretary to decide all questions of law and fact
necessary to a decision by the Secretary under a law that affects the provision of
benefits by the Secretary to veterans or the dependents or survivors of veterans. See also
38 C.F.R. § 20.101(a) (Board’s jurisdiction extends to review of all decisions 'under a
law that affects the provision of benefits by the Secretary to veterans or their dependents
or survivors.). Thus, the Board’s appellate jurisdiction is generally coextensive with the
Secretary’s authority under 38 U.S.C. § 511(a) to render initial decisions.”
This further supports that, "Neither the State nor the Division of Child Support
Services has authority to enforce child support on a Veteran's disability compensation...."
16.

Since the 1987 Rose decision, U.S. Congress has actively legislated to preclude both

the state and it's officials from overriding Apportionment rulings between family claimants.
However, this is now the instant case question presented to the State of Michigan, and this
county that must be answered without disregard and contempt of presented post 1987 federal
laws, regulations, directives and high court rulings.
17.

It must be reiterated here that the Rose v. Rose SCOTUS ruling was based upon the

fact that disabled veteran Charlie Wayne Rose was never afforded a proper VA Apportionment
claim review. "Those questions are not before us, since the Administrator has made no such
ruling." A VA Apportionment Claim ruling was never before the 1987 Court. However, in his

27a

evidence and assertions before the Attorney Referee, Mr. Allen Schlossberg, Mr. Carpenter had
not yet properly been afforded his VA Apportionment claim review pursuant to IM-98-03.
18.

38 U.S.C. § 5301 is the Nonassignability and Exempt Status of Benefits. Mr.

Carpenter’s VA service connected disability benefits award is protected by 38 U.S.C. § 5301.
38 U.S.C. § 5301(a) states that: "(1) Payments of benefits due or to become due under
any law administered by the Secretary shall not be assignable except to the extent specifically
authorized by law, and such payments made to, or on account of, a beneficiary shall be exempt
from taxation, shall be exempt from the claim of creditors, and shall not be liable to attachment,
levy, or seizure by or under any legal or equitable process whatever, either before or after receipt
by the beneficiary."
19.
From the VA Office of General Counsel, Precedent Opinion 2-2002 on the
Nonassignability of Benefits – 38 U.S.C. § 5301(a) Citation:
"4. An ASSIGNMENT is a transfer of property or some other right from one
person to another that confers a complete and present right to the assignee in the
subject matter of the assignment. 6 Am. Jur. 2d Assignments § 1 (1999)…An
assignment is by its nature a voluntary transfer. 6 Am. Jur. 2d Assignments § 2
(1999)."
This paragraph is intended to clarify that, in any case where a beneficiary entitled
to compensation, pension, or dependency and indemnity compensation enters into an agreement
with another person under which agreement such other person acquires for consideration the
right to receive such benefit by payment of such compensation, pension, or dependency and
indemnity compensation, as the case may be and include deposits into a joint account from
which such other person may make withdrawals, or otherwise, such agreements shall be deemed
to be an ASSIGNMENT and IS PROHIBITED."
Section (3)(C) states that any AGREEMENT or arrangement for collateral for
security for an agreement that is prohibited under subparagraph (A) is also PROHIBITED and is
VOID from its inception." (emphasis added)
20.

31 CFR Part 212 Final Rule June 2013 is the Garnishment of Accounts Containing

Federal Benefits. His service connected VA disability compensation benefits award is such a

28a

protected federal benefit. The preamble of the Final Rule directs me to cite, invoke, and assert
the protections of 38 U.S.C. § 5301(a):
…federal payments subject to garnishment by child support enforcement agencies
under 42 U.S.C. 659 are limited to payments based on remuneration for
employment. This does not include VA payments other than those representing
compensation for a service-connected disability paid to a former member of the
Armed Forces who is in receipt of retired or retainer pay and who has waived a
portion of the retired or retainer pay in order to receive such compensation...
21.

Code Violations. In addition to previously cited federal civil rights, his current child

support calculation must not take into consideration any of his VA award as this would violate
numerous potential 18 U.S. Code violations, including Sections 241, 246, 249(a)(2), 371, 641, &
666.
22.

Lack of Subject-Matter Jurisdiction Pursuant to 5 C.F.R. § 581.401.

Mr. Carpenter’s true "aggregate disposable earnings" are not to include his VA benefits award,
for demonstrated lack of subject-matter jurisdiction by the family court, in both establishment or
assignment in any legal process.
"'We conclude that we lack jurisdiction to afford such relief because Congress, in its
discretion, has elected to place judicial review of claims relate to the provision of
veterans' benefits beyond our reach and within the exclusive purview of the United
States Court of Appeals for Veterans Claims and the Court of Appeals for the Federal
Circuit... Without jurisdiction the court cannot proceed at all in any cause.” See,
Veterans for Common Sense v. Shinseki, 678 F.3d 1013, 1016 (9th Cir. 2012),
23.

Jurisdiction is power to declare the law, and when it ceases to exist, the only function

remaining to the court is that of announcing the fact and dismissing the cause.' Ex parte
McCardle, 74 U.S. (7 Wall.) 506, 514, 19 L.Ed. 264 (1868) ... we conclude that granting VCS its
requested relief would transform the adjudication of veterans' benefits into a contentious,
adversarial system--a system that Congress has actively legislated to preclude. See Walters v.
Nat'/ Assn. of Radiation Survivors, 473 U.S. 305, 323-24, 105 S.Ct. 3180, 87 L.Ed.2d 220
(1985). The Due Process Clause does not demand such a system."

29a

24.

Anestis v. United States, No. 13-6062, 8 (6th Cir. 2014), "In 2012, the Ninth Circuit

synthesized the case law and concluded that '[38 U.S.C.] § 511precludes jurisdiction over a claim
if it requires the district court to review "VA decisions that relate to benefits decisions,"
including "any decision made by the Secretary in the course of making benefits
determinations.""'
25.

Rankin v. Howard, No. 78-3216. 633 F.2d 844 (9th Cir.1980) "...when a judge knows

that he lacks jurisdiction, or acts in the face of clearly valid statutes or case law expressly
depriving him of jurisdiction, judicial immunity is lost. See Bradley v. Fisher, 80 U.S. (13 Wall.)
at 351 ('when the want of jurisdiction is known to the judge, no excuse is permissible'); Turner v.
Raynes, 611 F.2d 92, 95 (5th Cir.1980) (Stump is consistent with the view that 'a clearly
inordinate exercise of unconferred jurisdiction by a judge-one so crass as to establish that he
embarked on it either knowingly or recklessly-subjects him to personal liability')."
26. Furthermore, pursuant to 45 CFR 302.56(g), before any determination can be made on
Mr. Carpenter’s “refusal” to pay any child support from his VA benefits award, all the federal
laws, regulations, and policy directives as contracted with the Federal Office of Child Support
Enforcement should be made in accordance with the Veterans' Judicial Review Act of 1988 on
any alleged arrears based upon the child support order(s) following a proper apportionment
application submission by the Title IV-D agency. The only jurisdiction for an appeal of the VA
Apportionment ruling will be Board of Veterans' Appeal as stated in VA Form 4107c.

Dated: July 31, 2017

Respectfully submitted,

_____________________
Joel Mendoza
Attorney for Plaintiff
7201 W. Saginaw Hwy, 302
Lansing, MI 48917
(517) 862-8023

30a

State of Michigan
In the Family Court for the County of Eaton

Dax E. Carpenter,
Proposed Referee's Order and Notice of
Submission of Order Pursuant to
MCR 3.215(E)

Plaintiff,
v

Julie E. Carpenter,
Case No.: 08-929-DM
Hon. John D. Maurer

Defendant.
Joel Mendoza (P69557)
Attorney for Plaintiff
7201 W. Saginaw Highway, 302
Lansing, Michigan 48908
Lawrence Emery (P23263)
Attorney for Defendant
924 Centennial Way. Suite 470
Lansing, Michigan 48917

At a session of saild Court
held on the
, = day of
September, 2017
Present: John D. Maurer, Circuit Court Judge
History of the Matter

On numerous occasions, the Friend of the Court scheduled Show Cause
Hearings to enforce the court's child support orders regarding this matter. Plaintiff
father, on numerous occasions, did not disclose his disability income as a source of
income to the Friend of the Court. Ultimately, when confronted by Counsel for
Defendant at one of the Show Cause Hearings, Plaintiff father finally acknowledged he

31a

has been receiving disability income. When questioned by the Referee as to why
Plaintiff father failed to disclose the disability income to the Friend of the Court, Plaintiff
father stated he was advised by Child Support Enforcement Worker Luci Sharp that
disability income was not considered income by the Friend of the Court. Child Support
Caseworker Luci Sharp testified before the Referee that she does not recall ever
making that statement to Plaintiff father.

After discussing the matter with the parties, the Referee believes the matter had
been resolved. The Referee believed that the parties would recalculate Plaintiff father's
child support obligation, incorporating his disability income for purposes of utilizing the
Michigan Child Support Guidelines.
Thereafter, it became evident that Plaintiff father was still claiming, in some
fashion, that his disability income should not be included in his income for purposes of
calculating his child support obligation.
Ultimately, the Referee and the parties agreed that each party would draft a brief
with the facts and law that supported their respective positions, and the Referee would
issue an opinion regarding the matter.
Plaintiff father filed his brief on July 31, 2017. Pursuant to the agreement of the
parties, Defendant mother would have seven additional days to file a Response Brief.
On August 7, 2017, Counsel for Defendant mother filed his Response Brief, with
the Referee's opinion to be submitted within 21 days, or by August 28, 2017.
Discussion and Analysis
The issue involved in this case is simply whether or not veterans' benefits are

2

32a

considered income for the purposes of the application and utilization of the Michigan
Child Support Formula. Plaintiff father claimed that veteran's benefits are not
considered income for the purposes of the Michigan Child Support Formula.
Defendant mother claimed that veteran's benefits are considered income for the
purposes of the utilization and application of the Michigan Child Support Formula.
The Referee finds that the answer is quite simple. Veteran's benefits are considered
income for the purposes of the utilization and application of the Michigan Child Support
Formula.
The Michigan Child Support Formula Manual (2017 MCSF) directs that income

shall be defined and determined in Chapter 2 of the manual as follows:

2.01(A) The term "net income" means all income minus the
deductions and adjustments permitted by this manual. A parent's "net
income" used to calculate support will not be the same as that person's
take home pay, net taxable income, or similar terms that describe
income for other purposes.
2.01(B) The objective of determining net income is to establish, as
accurately as possible, how much money a parent should have available
for support. All relevant aspects of a parent's financial status are open
for consideration when determining support.
2.01(C) Income includes, but is not limited to, the following:
(1) Wages, overtime pay, commissions, bonuses, or other monies
from all employers or as a result of any employment (usually, as
reported in the Medicare, wages, and tips section of the parent's W-2).
(2) Earnings generated from a business, partnership, contract,
self-employment, or other similar arrangement, or from rentals. §2.01(E).
(a) Income (or losses) from a corporation should be carefully examined
to determine the extent to which they were historically passed on to the
parent or used merely as a tax strategy.
(3) Distributed profits or payments from profit-sharing, a pension
or retirement, an insurance contract, an annuity, trust fund, deferred
3

33a

compensation, retirement account, social security, unemployment
compensation, supplemental unemployment benefits, disability
insurance or benefits, or worker's compensation.
(a) Consider insurance or other similar payments received as
compensation for lost earnings, but do not count payments that
compensate for actual medical bills or for property loss or damage. 2017
Michigan Child Support Formula Manual—Chapter 2: Determining
Income Page 6 State Court Administrative Office
(b) If retired parent receives payments from an IRA, defined
contribution, or deferred compensation plan, income does not include
contributions to that account that were previously considered as the
parent's income used to calculate an earlier child support obligation for
a child in this case.
(4) Military specialty pay, allowance for quarters and rations,
housing, veterans' administration benefits, G.I. benefits (other than
education allotment), or drill pay. (empahasis added).
2017 MCSF(C)(4) clearly directs that Veterans Administration Benefits are to

be utilized as income for the purposes of the Michigan Child Support Formula.
Plaintiff father cryptically continues to argue that for some administrative purpose, the
federal government has determined that Veterans Administration benefits potentially
should be apportioned with the result that some or all of the benefit should not be
utilized as income when calculating Plaintiff father's child support obligation to
Defendant mother.
The Referee finds Plaintiffs argument inapplicable, unsupported, confusing,
legally-contorted, and totally unpersuasive of the position Plaintiff father efforts to
prove.
The Referee was led to believe that Plaintiff father was to produce the
definitive statement of controlling law that would prevent the Eaton County Friend of
the Court from utilizing Plaintiff father's Veterans Benefit as income for child support
purposes. Despite that assurance, the Referee is left with Plaintiff father's apparent
4

34a

position that he simply wants to retain the entirety of his veteran's benefit as his sole
property, for the sole benefit of himself, as apparently he has done since May 12,
2013.
The Referee finds Plaintiffs argument is based on nothing more than a selfish,
self-serving desire to avoid being responsible for and paying any meaningful child
support to Defendant mother for the support of the parties' minor child.
Plaintiff has made a rather confusing claim, seemingly suggesting that the
state of Michigan cannot enter an order in the absence of an apportionment ruling,
made by the Secretary of the Department of Veterans Affairs. The Referee is not
aware of any such apportionment ruling in this case, and moreover is not aware of
any ruling that is contrary to the enforcement of a child support obligation based on
and utilizing Plaintiffs Veteran's benefits. In fact, Plaintiff father presented a letter
from the Veterans Administration, dated July 3, 2017, denying a request for
apportionment.
Plaintiff father has failed to provide any persuasive argument that disability
benefits are exempted from inclusion in Plaintiffs income for the purposes of
calculation of his child support obligation.
The Referee believes the bulk of Plaintiff father's brief and the authority cited
by Plaintiff father are inapplicable and irrelevant to this proceeding.
Counsel for Defendant claimed that evidence provided to the Referee supports
that Plaintiff father willfully concealed over $130,000 in income over a four-year
period. The Referee concurs with that statement. Plaintiff provided neither a

5

35a

reasonable nor excusable explanation for failing to disclose the receipt of that income.
Counsel for Defendant claimed that by signing the Uniform Child Support
Order that reduced his income, Plaintiff father attested to the accuracy of the income
information upon which that order was based. The Referee concurs with that claim.
Simply but, Plaintiff father has refused to provide an honest statement and
disclosure of his income, but rather misrepresented and misled Plaintiff mother and
the court about the true amount of his actual income. Plaintiffs claim that he received
errant information from Friend of the Court staff was totally unpersuasive.
Plaintiffs credibility was hardly bolstered by his false statements made to the
Referee as well as his curious and repeated use of the 5th Amendment to avoid
honestly answering questions regarding his veteran's benefits during the Referee
Hearing.
Moreover, the Referee finds that Plaintiff father failed to honestly disclose his
income for a protracted period of time to the Friend of the Court, which induced and
caused the Friend of the Court to rely on his assertions, resulting in an unreasonably
inaccurate child support order. Accordingly, the Referee believes pursuant to MCL
552.603(b), Plaintiff father's child support obligation should be retroactively
corrected.
Furthermore, based on Plaintiff father's false statements and conduct which
has unreasonably protracted these proceedings, the Referee believes Plaintiff is
subject to sanctions pursuant to MCR 2.114.
Order

6

36a

Based on the foregoing, the Referee believes the entry of the following order is
appropriate:

IT IS ORDERED:
1. The Veterans disability benefits received by Plaintiff father since May
12, 2013 are includable in his income for purposes of calculating
Plaintiff father's child support obligation utilizing the Michigan Child
Support Guidelines
2. The calculation of Plaintiff father's child support obligation shall be
based on the Veterans disability income received by Plaintiff father
retroactive to May 12, 2013. The Referee specifically finds that Plaintiff
father intentionally misrepresented and intentionally failed, refused
and/or neglected to disclose the true nature of his income since that
date. Moreover, the Referee believes Plaintiff father conceded to
retroactive application of the correct amount of his income for
purposes of the calculation of his child support obligation.
3. The correspondence provided by the Veteran's Administration
detailing the amount of Veterans disability benefits received by Plaintiff
father shall be used to determine the actual total income received from
May 12, 2013 to the present for purposes of calculating Plaintiff
father's child support obligation, utilizing the Michigan Child Support
Guidelines.
4. The Uniform Child Support Order entered by the court shall include a

7

37a

determination of the appropriate amount of child support arrearages
owed by Plaintiff father, and a schedule to repay the same.
5. To effect the award of sanctions against Plaintiff father pursuant to
MCR 2.114, Counsel for Defendant mother shall prepare and submit a
statement to Plaintiff and the Friend of the Court stating the amount of
hours he has expended representing Defendant mother regarding this
child support matter. The Referee shall then issue a separate
proposed order regarding MCR 2.114 sanctions under the 21 day rule.
6. Except as specifically modified by this order, the terms and conditions
of the prior orders of the court sha

John

aurer,

in full force ancleffect.

udge

pproved by: L—

Allen
loss• erg,
Eaton County Family Court Referee
Notice of Submission of Order for Entry
The Parties have twenty-one (21) days to file a written Objection to this
Recommended Order with the Clerk of the Court, with a copy of the Objection served
to the opposing Party and the Friend of the Court. If neither Party files an Objection
with the Court, this Recommended Order shall remain as the Order of the Court
pursuant to MCR 3.215(E).
Pursuant to MCR 3.215(E)(5), the party who requests a judicial hearing
must draft and serve the Objection and a notice of hearing (after first obtaining a
hearing date from the office of the judge assigned to the case) on the opposing
party or counsel representing the opposing party in the manner provided in MCR
2.119(C), that provides such items must be served as follows: (a) at least 9 days
before the time set for the hearing, if served by mail, or (b) at least 7 days before
the time set for the hearing, if served by delivery under MCR 2.107(C)(1) or (2).

8

38a

An objecting party must also order the transcripts of the Referee Hearing
during the above referenced 21-day time limit. The transcripts of the Referee
Hearing may be ordered by contacting Luci Sharp, (517) 543-7500, x1319. The
objecting party will need to file a statement with the Objection and notice of
hearing stating the date the objecting party actually ordered the transcripts of the
Referee Hearing regarding the order that is being objected to.
The objecting party must also file a Proof of Service with the Clerk of the
Court stating that a copy of the Objection, notice of hearing, and statement of
ordering transcript has been served, and on what date, to the other party and the
Friend of the Court.
Pursuant to MCR 3.215(E)(4), the objection must include a clear and
concise statement of the specific findings or application of law to which an
objection is made. Objections regarding the accuracy or completeness of the
recommendation must state with specificity the inaccuracy or omission.
If an Objection is properly and timely filed by either party, the matter shall be
heard before the Judge assigned to the case.

CERTIFICATE OF MAILING
I hereby certify that on this date I mailed a copy of the foregoing Referee's
Order to the Parties at the addresses as stated above by U.S. mail.
August

, 2017

001 )1/0

a A.A.A.

Jenna Harris, Office Manager

Plaintiff father's Brief Due: 7/31/17
Defendant mother's Response Brief due: 8/7/17
Referee Order due: 8/28/17
Referee Order completed: 8/28/17
21-day Objection Due 09- 1 01 -

9

39a

1

STATE OF MICHIGAN

2

56TH CIRCUIT COURT (EATON COUNTY)

3

DAX CARPENTER,

4

Plaintiff,

5
6

File #08-929-DM
JULIE CARPENTER,

7

Defendant./

8
9

MOTION TO SET ASIDE ORDER

10

BEFORE THE HONORABLE JOHN D. MAURER, CIRCUIT JUDGE

11

Charlotte, Michigan - Wednesday, February 28, 2018

12
13

APPEARANCES:

14

For the Plaintiff:

JOEL MENDOZA (P69557)
5208 West Saginaw Highway, Suite 80111
Lansing, Michigan 48908
(517) 862-8023

For the Defendant:

LAWRENCE J. EMERY (P23263)
924 Centennial Way, Suite 470
Lansing, Michigan 48917
(517) 337-4866

Also present:

STEPHAN E. HOLLAND (P60956)
Appearing on behalf of Friend of
the Court

15
16
17
18
19
20
21
22
23

Recorded and transcribed by: Kathy Bond, CER/CSR-2779
Certified Electronic Recorder
Certified Shorthand Reporter
(517) 543-4327

24
• 25
56th Circuit Court
Charlotte, Michigan
1

40a

•

TABLE OF CONTENTS
2

Page

3

Oral argument by Mr. Mendoza

3

4

Oral argument by Mr. Emery

9

5

Rebuttal argument by Mr. Mendoza

13

6

Court's ruling

16

7
8

EXHIBITS:

9

None

10
11
12

0

13
14
15
16
17
18
19
20
21
22
23
24

• 25

56th Circuit Court
Charlotte, Michigan
2

41a

•

Charlotte, Michigan
2

Wednesday, February 28, 2017 - At 8:37 a.m.

3

THE COURT: This is case number 08-929, Carpenter

4

versus Carpenter.

5
6

We have Mr. Mendoza here for the plaintiff. Mr.
Emery here for the defendant.

7
8

And this is the time set for a motion filed by
plaintiff, a motion to set aside order.

9

Mr. Mendoza, it's your motion.

10
11
12
• 13

0

MR. MENDOZA: Yes, Your Honor. Good morning, Your
Honor.
THE COURT: Good morning.
MR. MENDOZA: Your Honor, we -- we submitted that

14

motion because the plaintiff is being penalized for the fact

15

that he did not have the funds to pay for the transcript in

16

advance of -- of putting in his objection. They have been

17

requested. The motion was timely. Just the money -- getting

18

the money together for the transcript took about another 11

19

days. And by that time, he already --

20

THE COURT: Mr. Mendoza, what -- what calculations

21

are inaccurate? What are they? 'Cause his objections, this

22

one-pager here --

23

MR. MENDOZA: Yes, Your Honor.

24

THE COURT: -- and it says:

25

"Friend of the Court calculations are are inaccurate
56th Circuit Court
Charlotte, Michigan

3

42a

•

and incorrect as to the amounts received by plaintiff-father."
2

MR. MENDOZA: Yes, Your Honor.

3

THE COURT: What -- what is that?

4

MR. MENDOZA: Well, we have a question of law as far

5

as whether Eaton County can take my plaintiff's VA benefits

6

into consideration for child support, Your Honor.

7
8

THE COURT: Well, according to this 201(C) -- and
it's on page four of Mr. Schlossberg's order -- it says:

9
10

"Military specialty pay, allowance for quarters..."
"...veterans' administration benefits."

11
12

4111

And that's, basically, what this is. Doesn't that
cover that?

13

MR. MENDOZA: Yes, Your Honor. The only thing that

14

-- that the Friend of the Court fails to realize is, under 201

15

-- 2.01(I), which kind of -- it -- it expounds on what

16

veterans' benefits can be applied, and they are misreading that

17

section.

18

•

There are two types of veterans' benefits. There's

19

the veterans' benefits that me, being a service member and

20

being eligible for retirement pay -- okay -- get injured while

21

on duty -- so, I can waive my retirement pay and receive VA

22

benefits in lieu of retirement ben --

23
24
25

THE COURT: So, it would be like workers' comp;
right?
MR. MENDOZA: Right. And -56th Circuit Court
Charlotte, Michigan
4

43a

•

THE COURT: But, workers' comp is covered under this,

2
3

MR. MENDOZA: Right. But, the military pay, Your

4

Honor, that's the earnings -- that's the veteran's benefits

5

based on the earning records of the service member.

6
7

THE COURT: But -- but if your -- your client's
receiving benefits 'cause he served his country --

8

MR. MENDOZA: Right.

9

THE COURT: -- and he received some type of injury.

10

MR. MENDOZA: Right.

11

THE COURT: And because of this injury, he's not able

12

110-

and it's included as income.

to work and have the income that he would normally have.

13

MR. MENDOZA: Right.

14

THE COURT: So, we, as a society, said that we're

15

going to -- because he -- he did something very honorable and

16

he served his country, he gets this money; correct?

17

MR. MENDOZA: Right.

18

THE COURT: But, then, isn't that in lieu of income

19
20
21
22
23

he could've earned, so it should count as child support?
MR. MENDOZA: No, Your Honor, that -- that's
incorrect because -THE COURT: So, where does the law specifically says
(sic) it doesn't count as income? Because it's --

24

MR. MENDOZA: Well --

25

THE COURT: -- nowhere in your brief.

56th Circuit Court
Charlotte, Michigan
5

44a

•

MR. MENDOZA: -- that is -- we were -- I hadn't sub

2

-- submitted the brief or -- or, the brief to -- to Friend of

3

the Court you're -- you're saying, Your Honor?

4

THE COURT: Right.

5

MR. MENDOZA: Yeah, I kept pointing to -- to I

6
7

THE COURT: But, it's not in your motion. There's -there's -- it -- there's -- you didn't put the law into your

9

motion to set aside it. And I don't really know military law,
Mr. Mendoza.

11

MR. MENDOZA: That's fine, Your Honor.

12

THE COURT: They wouldn't --

13

MR. MENDOZA: It's just --

14

THE COURT: -- take me.

15

MR. MENDOZA: -- I was taking it one step at a time.

16

I was taking the fact that it was put in front of you before he

17

had a -- he had a proper chance to object and file his

18

objection. So, that's why it -- it's a -- it's an objection to

19

-- to entering the order.

20
21
22

•

the -- the statutory -- the preemptions from --

8

10

O

and

THE COURT: But, then you stipulated to an order with
Mr. Emery later, saying the order can take place.
MR. MENDOZA: No, Your Honor. That -- that wasn't up

23

till after our hearing to -- as to what were you going to

24

decide on whether we were gonna get in front of you to argue

25

the -- the point, or you were going to leave the default in
56th Circuit Court
Charlotte, Michigan
6

45a

•

place, so.
2

THE COURT: In order to set aside the default, you

3

have to do -- and I'm going back to my civil days, way back to

4

Jay Bergamini. You have to have good cause and a meritorious

5

defense.

6

MR. MENDOZA: Yes, Your Honor.

7

THE COURT: But, there's nothing in this motion that

8

I would consider a meritorious defense because you haven't

9

outlined it. If -- if you have -- if you can show that his

10

income is somehow exempt from Friend of the Court, then you'd

11

have a winning argument here, but you haven't shown that.

12

MR. MENDOZA: Your Honor, it's because Friend of the

13

Court does not want to -- doesn't want to read the -- 'cause we

14

-- we brief it, Your Honor. It's in -- it's in the court

15

record. They just don't want to read 2.0(I) (sic) and

16

differentiate from the two incomes that military -- that --

17

that disabled veterans receive. They -- they choose not to.

O

18

And this jurisdiction isn't the only one. I mean, it

19

-- it's -- it is a wide-spread, kind of, interpretation that we

20

are fighting. And we're fighting on -- on all levels.

21

•

THE COURT: The only -- the only exemption I've ever

22

seen from child support would be an award for pain and

23

suffering. And I just can't imagine the federal government

24

ever giving our soldiers pain and suffering. Not that they

25

don't have pain and suffering, but the country would go broke.
56th Circuit Court
Charlotte, Michigan
7

46a

•

And I just don't see that as a -- I -- I just don't see how
2

they would not exclude that, and -- and you haven't shown it.

3

And, Mr. Mendoza, if you could -- if -- if you could

4

show the case law, I'd be more than happy to look at it, but

5

you haven't shown that here today.

6

•

MR. MENDOZA: Well, we go -- we fall under the

7

preemption statutes for the federal government over the state

8

statutes. And -- and Congress has -- has protected the

9

veterans' benefits that are received not in lieu of retirement

10

but for the disability, strictly for the disability, 100

11

percent.

12
13

THE COURT: Well, where's that in your motion? None
of this is in the motion.

14

MR. MENDOZA: It's all in the -- in the brief that I

15

submitted to Friend of the Court, Your Honor. It's all in

16

there.

17
18

THE COURT: Well, I read the file, and I didn't see
it. So, maybe I'll have to reread it.

19
20

Mr. Holland, did you see anything in there regarding
that?

21

MR. HOLLAND: I didn't review the file. And I think

22

this hearing was initially before Mr. Schlossberg.

23

MR. MENDOZA: Mr. Schlossberg.

24

THE COURT: Come on up. We can't hear you. Sorry,

25

Stephen.
56th Circuit Court
Charlotte, Michigan
8

47a

•

MR. HOLLAND: I didn't review the file. I think the

2

referee hearing was before Mr. Schlossberg. So, I don't know

3

if the brief was tendered at that time or -- so. And Mr.

4

Schlossberg will be here this morning. He's running a little

5

late but --

6
7

0

THE COURT: That's fine. That's fine. I'm gonna
give Mr. Emery a chance here in a minute.

8

MR. HOLLAND: Okay.

9

THE COURT: Anything else, Mr. Mendoza?

10

MR. MENDOZA: No, Your Honor.

11

THE COURT: All right, thank you.

12

Mr. Emery, what say you?

13

MR. EMERY: Can I address you from here, Your Honor?

14

THE COURT: Wherever you're most comfortable.

15

MR. EMERY: First of all, Your Honor, I apologize

16

for

my client not being here. She --

17

THE COURT: I'm fine with that.

18

MR. EMERY: Okay. Judge, now I hear something

19

entirely different than what I thought we were here for today.

20

We did have a chance to fully brief and present case law,

21

statutes, all of which Mr. Schlossberg rejected, and properly

22

so, because I will tell you there is a United States Supreme

23

Court decision, Rose versus Rose. It was decided in 1987.

24

Opinion by Justice Marshall that specifically held that

• 25

veterans' disability benefits not only are susceptible to child
56th Circuit Court
Charlotte, Michigan
9

48a

•

support, but that federal law that requires states to have
2

child support guidelines require its inclusion.

3

So, we don't just have, well, can ya or can't ya, we

4

also have federal statutes that create those guidelines that

5

specifically say that they are included, are required to be

6

included.

7
8

Referee Schlossberg, and he made his decision fully aware of

9

all that.

10

•

We argued all this before Judge Schlossberg --

There is no merit to the claim that these benefits

11

are not susceptible to child support calculations, are not

12

income for purposes of the child support guidelines in Michigan

13

or any other state.

14

So, it's not an arguable point. And that's what Mr.

15

Schlossberg said. And not only that, he sanctioned the

16

plaintiff for trying to make such a spacious argument.

17

So, now, I thought we were here today because I,

18

allegedly, obtained benefit calculations -- or, excuse me,

19

benefits records that show how much the plaintiff had received

20

over the last four years, all of which was unknown to anyone

21

including the Friend of the Court because he didn't disclose

22

it. I obtained those from general counsel's office, the VA

23

general counsel, pursuant to a very specific statute that

24

allows those benefit amounts to be released. That's why I

25

thought we were here today. That's the only thing I found in
56th Circuit Court
Charlotte, Michigan
10

49a

•

-- in my copy of the objection.
2
3

from was never filed with this Court, as far as I know. It

4

might've been attached to this motion, but it wasn't filed in a

5

timely fashion.

6

1111

The objection to the Friend of the Court was reading

So, first of all, the initial question is can this

7

Court even decide this issue, because there was failure of

8

default by the plaintiff in preserving any of these issues for

9

this Court to review pursuant to a very specific court rule,

10

MCR 2 point -- or, 3.215, that outlines the procedure for the

11

referee making a determination and referring it to this Court

12

on recommendation and order.

13

These objections were never filed. I've looked

14

through the court file several times. There are no objections

15

filed prior to the date of the entry of this order, the order

16

we're talking about today. So, there's a procedural default

17

here, in addition to the fact that there is no merit to the

18

objection that I know about or to the objection that we're now

19

hearing about today. Those were all fully vetted.

20

Due process was provided to this plaintiff. We're

21

just here to delay this matter further. We're talking about

22

retroactive support back to May 1st, 2013 that should be

23

payable. We're talking about tens of thousands of dollars this

24

man owes because he concealed his income, reportable income,

• 25

from the Friend of the Court and from this Court, because every
56th Circuit Court
Charlotte, Michigan
11

50a

•

1

time he went to a show cause, he was even arrear -- in arrears

2

on the very low order that he obtained from this Court without

3

disclosing these things. And every time that you issued a show

4

cause order, you said, "You must disclose your sources of

5

income." He ignored that order each time, time after time

6

after time.

7
8

order of the Court and pursuant to the findings made at the

9

referee hearing, ordered retroactive support.

10
11
12

0

We're here because we're trying to delay the
execution of this order. This order needs to be executed now.
A hundred and thirty thousand dollars worth of

13

veterans' benefits. And if you look at the calculation of

14

veterans' benefits, they're based on the fact that he has two

15

dependents, these two children. The amount of benefits is

16

based on that. And yet, he still didn't pay anything to the

17

support of these children other than the $168 a month that he

18

chicanered (sic) the Friend of the Court and I into reducing.

19

THE COURT: Mr. Emery, isn't the order that was

20

signed by the Court on the 30th or oc -- October 30th, 2017 in

21

place? So, the higher support's not in place right now?

22

MR. EMERY: The order of -- there was an order

23
24

4110

So, the Friend of the Court, pursuant to the prior

25

entered on September 20th.
THE COURT: Child Support Order/Recommendation
Modification, that -- that has not taken place?
56th Circuit Court
Charlotte, Michigan
12

51a

•

MR. EMERY: It -- it has now been -- we -- we've

2

we have stipulated that it should enter.

3

THE COURT: Okay.

4

MR. EMERY: Mr. Mendoza did. We all signed it. You

5

•

--

signed it on January 23rd.

6

THE COURT: January 23rd.

7

MR. EMERY: This year.

8

THE COURT: Okay.

9

MR. EMERY: But, we had a provision in there that it

10

was subject to this hearing, and I thought that was proper

11

because it hadn't been resolved.

12

THE COURT: So, that's what that portion --

13

MR. EMERY: That's right.

14

THE COURT: -- of that meant. All right. Well,

15

thank you, Mr. Emery.

16

MR. EMERY: Thank you.

17

THE COURT: Mr. Mendoza, it's your motion. I'll give

18

you the last word.

19

MR. MENDOZA: Yes, Your Honor.

20

THE COURT: What about this Rose case?

21

MR. MENDOZA: Your Honor, that --

22

THE COURT: I've never -- I know Mr. Emery. I've

23

tangled with him when I was a lawyer --

24

MR. MENDOZA: Yeah, I know.

25

THE COURT: -- and I've never known him not to cite a
56th Circuit Court
Charlotte, Michigan
13

52a

•

case correctly.
2
3

case is 30 years old and has been super -- superceded by

4

Howell, that was entered -- that was decided, Your Honor, in

5

2017.

6

THE COURT: Who wrote that opinion; do you know?

7

MR. MENDOZA: (No verbal response).

8

THE COURT: What's the -- give us a case number, so

9
10
11
12

0

MR. MENDOZA: I know. That -- that state is -- that

13
14

my law clerk -MR. MENDOZA: Sure, case number -- Howell v Howell,
137 Supreme Court 1400, or 1-4-0-0, 2017.
THE COURT: And is it true that your client,
basically, got higher benefits because he had the two kids?
MR. MENDOZA: Your Honor, he gave that money. He --

15

it's -- the defendant's counsel is -- is making it seem that he

16

received all this money. What VA does is it apportions an

17

amount, which was $192, to the children, and that money had

18

been given on a monthly basis.

19

THE COURT: That's not the right cite.

20

MR. MENDOZA: Oh, it's not the right cite?

21

MR. EMERY: In addition, Your Honor, even if the

22

Supreme Court had reversed Rose, it's not retroactive unless he

23

can show retroactivity.

24
• 25

He says this opinion occurred in 2017. I'm sorry, he
talked about -56th Circuit Court
Charlotte, Michigan
14

53a

•

THE COURT: I thought he said two-oh-seven.

2

MR. MENDOZA: It's 2017.

3

THE COURT: Oh.

4

MR. EMERY: We're talking about support that's ended

5

back to 2013.

6
7

And the -- this was never cited, Judge. I had no
opportunity to review this case.

8
9
10

•

MR. MENDOZA: It was cited in -- in our -- in our
brief to -- to Friend of the Court. It's in there. It just -it was pending at the time; now it's been decided.

11

THE COURT: Do you have the cite on Rose?

12

MR. EMERY: Yes, I do, Your Honor. I think -- I

13

don't know if Mr. Schlossberg put it in there, but I have it.

14

Find my brief?

15

THE COURT: I didn't see it in -- in the -- the brief

16

that you filed, your -- your Brief in Support of Her Answer of

17

Motion.

18
19

MR. EMERY: No, because I didn't think that was an
issue today.

20

Rose versus Rose, 481 US 619.

21

LAW CLERK:

22

THE COURT: Pardon?

23

LAW CLERK: It's still good law.

24

THE COURT: Okay, Rose hasn't been reversed.

25

All right, thank you, Mr. Mendoza.

(Inaudible).

56th Circuit Court
Charlotte, Michigan

15

54a

•

MR. MENDOZA: Yes, Your Honor.
2
3

your motion. I -- I -- Mr. Emery's brief -- I'm gonna

4

incorporate his brief in my ruling. I think his brief was

5

accurate. In addition to that, I'm going to -- and if -- and

6

you have -- if -- if you believe I'm wrong, that's why we have

7

a Court of Appeals.

8

MR. MENDOZA: Yes, Your Honor.

9

THE COURT: I -- I'm -- I'm not trying to be mean or

10

•

vindictive here.

11

MR. MENDOZA: No, Your Honor.

12

THE COURT: But, it -- it looks here that veterans'

13

administration benefits are income. And when I went to New

14

Judges School, Judge Tahvonen said, "Income is income, and all

15

income has to be included."

16

So, I'm going to deny your motion.

17

If -- if -- Judge Deming, who's one of my three

18

founding fathers up here on the wall, always indicated that

19

facts win cases and case law wins cases. And -- but I don't

20

believe in -- he never believed in technicalities taking

21

someone's right away from having justice.

22

4110

THE COURT: All right. Mr. Mendoza, I'm gonna deny

And so, I'm not ruling because you filed your

23

objection late. I'm ruling because there's no case law that

24

I've seen that supports your position.

25

And if this Howell case actually overrules Row (sic)
56th Circuit Court
Charlotte, Michigan
16

55a

and it says -- and -- and if Congress has indicated that this
income does not have to be calculated for child support, then

the Friend of the -- or, I'm sorry, then the Court of Appeals
can reverse me, and then all the judges in Michigan can know
that there's a new case in the land.
But, as I read the case law right now, Rose -- and -and I -- I've known Mr. Emery for many years. And I trust you,
also, Mr. Mendoza. Don't get me wrong. But I have found -and I'm not trying to give Mr. Emery a big head here, but I
found his research to be on par with my former law partner,
Sheila Deming. And -- and they -- they have it. And I've read
his brief.
Also, Mr. Schlossberg's order, I believe, calculates,
it also that income is income.
And if your client made a mistake and didn't realize
this was income, well, he still has to pay retroactively
because it was. And it's kinda like when you pay your -- you
don't realize you have income with the IRS and they come back
three years later. They don't want to hear it. They want
their money.
And this is a case where I have to look out for the - I believe it's Christopher and Nicholas. I have to look out
for the best interest of the children. And the best interest
of the children is that they need the child support because
that's what our legislature has ruled.
56th Circuit Court
Charlotte, Michigan

17

56a

•

So, for these reasons, I'm gonna deny your -- your
2

motion to set aside the default order. I don't believe that a

3

meritorious defense or a -- a reason has -- has been litigated

4

to show that it should be set aside. I -- and even if the

5

objection was timely, I would deny the objection because I find

6

that it -- it's not with merit because the law, as -- as I see

7

it, is pretty clear that income is income, and disability

8

benefits are part of the income. So, that's the order of this

9

Court.

10

Mr. Emery, would you prepare the order?

11

MR. EMERY: Judge, I had prepared an order, but I

12

also requested sanctions in this case and would ask the Court

13

to rule on that.

14

THE COURT: What have you requested?

15

MR. EMERY: I'm sorry?

16

THE COURT: What -- what amount in sanctions?

17

MR. EMERY: I -- I've -- I've requested an

18

opportunity to present a statement to the Court, give Mr.

19

Mendoza a chance to object to it, and then have the Court

20

determine that based on --

21
22

THE COURT: That can be -- be included in the order.
And if it can't be agreed upon, I'll hear it.

23

MR. EMERY: Then, I'll present this order.

24

THE COURT: Here.

• 25

MR. EMERY: I also

--

56th Circuit Court
Charlotte, Michigan
18

57a

THE COURT: Has Mr. Mendoza seen this order?
2
3

MR. EMERY: No. I will present it to him right now,
Judge.

4

THE COURT: Okay.

5

MR. EMERY: But, I did also include in this order --

6

when we had the order of January 23rd, 2018, we put provisions

7

in there that it would be subject to a decision on this issue.

8

So, I included in this order an order that that become now

9

fully effective, that those child support calculations in the

10

order of January 23rd also now become fully effective, since

11

you have resolved that issue.

12
13

THE COURT: That is my intent for that to happen,
yes.

14

MR. EMERY: So, I would present a copy of this order

15

to Mr. Mendoza and submit it to the Court, so we can enter it

16

as soon as possible.

17

THE COURT: Mr. Mendoza, I know you don't like my

18

ruling and don't agree with my ruling, and I understand that,

19

but does the order comport with my ruling is my question to

20

you, sir.

21
22
23
24
25

MR. MENDOZA: This order that's been handed to me,
Your Honor?
THE COURT: Yes, sir. Do you have any objections as
to this order based on my ruling? And I'll read it, also.
MR. MENDOZA: Except for the sanctions, Your Honor.
56th Circuit Court
Charlotte, Michigan
19

58a

•

I don't agree with -- with the -- the sanctions portion of this
2

order.
THE COURT: Well, what's gonna happen is -- is Mr.

3
4

Emery's gonna present you with a bill. And if your client

5

disagrees with it, specifically outline what he disagrees with

6

and send it back to Mr. Emery. If you can come up with an

7

agreement, then that will be the end of it.
MR. EMERY: And if we can't, Judge, I have the burden

8

•

9

of coming back before the Court to have an argument on that.

10

THE COURT: That's correct. I'll -- I understand

11

your objection as this is calculated. But, Mr. Mendoza, you

12

can object to the -- you can object to the attorney fees as not

13

being reasonable, not being proper, not being accurate, and

14

I'll have a hearing as to that. And there might be additional

15

sanctions at that time if your objection's without merit.

16

There may be -- there may be additional sanctions against Mr.

17

Emery if I find that his billing is unreasonable. But, there

18

will be sanctions on this because, as I see it, the law was

19

clear.

20

So, for those reasons, I'm gonna sign this order over

21

your objection. And if I see you back here, it's always great

22

to see you, but I'll -- I'll make the decision. And if it's

23

not agreeable to you, well, we'll go from there.

24
25

So, Mr. Emery, would you be so kind as to take the
file to the Clerk's Office?
56th Circuit Court
Charlotte, Michigan
20

59a

•

MR. EMERY: I -- I will, Your Honor.
2

THE COURT: Thank you, both.

3

MR. EMERY: Thank you, Judge.

4

THE COURT: That's all for the record.

5

(At 9:00 a.m., proceedings concluded)

6

- - -

7
8
9
10
11
12

0

13
14
15
16
17
18
19
20
21
22
23
24

0

25

56th Circuit Court
Charlotte, Michigan
21

60a

•

CERTIFICATION OF COURT RECORDER

2
3

STATE OF MICHIGAN

)

4

COUNTY OF EATON

)

5
6
7
8

I certify that this transcript consisting of 22
pages, is a complete, true and accurate transcript, to the best
of my ability, of the proceedings and testimony taken in this
case on Wednesday, February 28, 2018.

9
10

Dated: March 7, 2018

11
12

0

13
14

Kathy`Bond; CSR/CER-2779
56th Circuit Court
1045 Independence Blvd.
Charlotte, Michigan
48813
(517) 543-4327

15
16
17
18
19
20
21
22
23
24
• 25
56th Circuit Court
Charlotte, Michigan

22

61a

IN THE SUPREME COURT
DAX ELLIOT CARPENTER,
Plaintiff / Petitioner,
vs.

MSC Docket No. 161111
COA Docket No. 344512
Circuit Court No. 08-929DM

JULIE ELIZABETH CARPENTER,

MOTION FOR
RECONSIDERATION

Defendant / Respondent.

***FILED UNDER AO 2019-6***

CARSON J. TUCKER (P62209)
LEX FORI, PLLC
FOR APPELLANT / PETITIONER
117 N. FIRST ST., SUITE 111
ANN ARBOR, MI 48104-1354
(734) 887-9261
cjtucker@lexfori.org

LAWRENCE J. EMERY (P23263)
LAWRENCE J. EMERY, P.C.
FOR APPELLEE / RESPONDENT
924 CENTENNIAL WAY, SUITE 470
LANSING, MI 48917
(517) 337-4866
ljemery@prodigy.net

62a

RECEIVED by MSC 9/29/2020 10:44:57 PM

STATE OF MICHIGAN

MOTION FOR RECONSIDERATION .......................................... 1
BRIEF IN SUPPORT OF RECONSIDERATION ......................... 2
CONCLUSION ............................................................................... 18
RELIEF REQUESTED .................................................................. 25

63a

RECEIVED by MSC 9/29/2020 10:44:57 PM

TABLE OF CONTENTS

Cases
Betty v Brooks & Perkins,
446 Mich 270; 521 NW2d 518 (1994) ..............................................21
Bowie v Arder,
441 Mich 23; 490 NW2d 568 (1992) ....................................... 8, 10, 11
City of Detroit v Ambassador Bridge,
481 Mich 29; 748 NW2d 221 (2008) ................................................21
Cushman v Shinseki,
576 F 3d 1290 (Fed Cir 2009) ...........................................................22
Davis v Wechsler,
263 US 22; 44 S Ct 13; 68 L Ed 143 (1923)......................................20
Driver v Union Indus Trust & Savings Bank,
264 Mich 42; 249 NW 459 (1933) ....................................................10
Ex Parte Lange,
5 US 163; 21 L Ed 872 (1873) ..........................................................10
Ex Parte Rowland,
104 US 604; 26 L Ed 61 (1881) ........................................................10
Fletcher v Fletcher,
447 Mich 871; 526 NW2d 889 (1994) ..............................................21
Foster v Foster,
___ Mich ___; ___ NW2d ___ (2020) .............................. 8, 13, 18, 24
Fox v Univ of Michigan Bd of Regents,
375 Mich 238; 134 NW2d 146 (1965) .......................................... 9, 10
Free v Bland,
369 US 663; 82 S Ct 1089; 8 L Ed 2d 180 (1962) .............................13

64a

RECEIVED by MSC 9/29/2020 10:44:57 PM

TABLE OF AUTHORITIES

Hillman v Maretta,
569 US 483; 133 S Ct 1943; 186 L Ed 2d 43 (2013) .........................23
Hines v Lowrey,
305 US 85; 59 S Ct 31; 83 L Ed 56 (1938).................................. 12, 20
Howell v Howell,
137 S Ct 1400; 197 L Ed 2d 781 (2017)..................................... passim
In re Estate of Fraser,
288 Mich 392; 285 NW 1 (1939) ......................................................11
In re Marriage of Cassinelli (On Remand),
20 Cal App 5th 1267; 229 Cal Rptr 3d 801 (2018)..............................7
Kalb v Feurstein,
308 US 433; 60 S Ct 343; 84 L Ed 370 (1940)..................................20
Mansell v Mansell,
490 US 581; 109 S Ct 2023; 104 L Ed 2d 675 (1989) ................. 13, 23
Martin v Hunter’s Lessee,
14 US 304; 4 L Ed 97 (1816) ............................................................14
Mathews v Eldridge,
424 US 319; 96 S Ct 893; 47 L Ed 2d 18 (1976) ...............................22
McCarty v McCarty,
453 US 210; 101 S Ct 2728; 69 L Ed 2d 589 (1981) ............. 13, 18, 22
McCulloch v Maryland,
17 US 316; 4 L Ed 579 (1819) ..........................................................20
Megee v Carmine,
290 Mich App 551; 802 NW2d 669 (2010).........................................8

65a

RECEIVED by MSC 9/29/2020 10:44:57 PM

Henderson v Shinseki,
562 US 428; 131 S Ct 1197; 179 L Ed 2d 159 (2011) .........................4

People v Bryant,
491 Mich 575; 822 NW2d 124 (2012) ..............................................21
Ridgway v Ridgway,
454 US 46; 102 S Ct 49; 70 L Ed 2d 39 (1981)........................... 13, 23
Rose v Rose,
481 US 619; 107 S Ct 2029; 95 L Ed 2d 599 (1987) .................. passim
Rostker v Goldberg,
453 US 57; 101 S Ct 2646; 69 L Ed 2d 478 (1981) ...........................22
Ryan v Brunswick Corp,
454 Mich 20; 557 NW2d 541 (1997) ................................................21
Sprietsma v Mercury Marine,
537 US 31; 123 S Ct 518; 154 L Ed 2d 466 (2002) ...........................21
Straus v Governor,
459 Mich 526; 592 NW2d 53 (1999) ..................................................9
Travelers v Detroit Edison,
465 Mich 185, 204; 631 NW2d 733 (2001) .................................... 8, 9
United States v Hall,
98 US 343; 25 L Ed 180 (1878) ........................................................12
United States v. Oregon,
366 US 643; 81 S Ct 1278; 6 L Ed 2d 575 (1961) ................. 12, 22, 23
Veterans for Common Sense v Shinseki,
678 F 3d 1013 (9th Cir 2012)..............................................................4
Windsor v McVeigh,
93 US 274; 23 L Ed 914 (1876) ........................................................10

66a

RECEIVED by MSC 9/29/2020 10:44:57 PM

Moore v Peake,
2008 US App Vet Claims LEXIS 1640 (2008)....................................4

Statutes
38 USC § 211 ........................................................................... 2, 3, 14
38 USC § 511 ............................................................................ passim
38 USC § 5301 .......................................................................... passim
38 USC § 7251 ...................................................................................5
38 USC § 7261 ...................................................................................5
42 USC § 659 ............................................................................... 6, 19
Rules
MCR 2.119 .......................................................................................23
MCR 7.311 ................................................................................... 1, 23
Treatises
Cooley, Constitutional Limitations (7th Ed) (1903) ...........................11
Regulations
5 CFR § 581.103 .................................................................................7

67a

RECEIVED by MSC 9/29/2020 10:44:57 PM

Wissner v Wissner,
338 US 655; 70 S Ct 398; 94 L Ed 424 (1949)...................... 12, 21, 23

Pursuant to Michigan Court Rule (MCR) 7.311(G), Petitioner seeks
reconsideration of the September 9, 2020 order of the court denying
leave to appeal in the case of Carpenter v Carpenter, unpublished
opinion per curiam of the Court of Appeals, issued January 30, 2020
(Docket No. 344512)).

68a

RECEIVED by MSC 9/29/2020 10:44:57 PM

MOTION FOR RECONSIDERATION

I [] disagree with the Court’s construction of 38 U.S.C. §
211(a), which provides that “decisions of the
Administrator on any question of law or fact under any law
administered by the Veterans’ Administration providing
benefits for veterans and their dependents…shall be final
and conclusive and no other official or any court of the
United States shall have power or jurisdiction to review
any such decision.” The Court finds this inapplicable
because it does not explicitly exclude state-court
jurisdiction, as it does federal…and because its
underlying purpose of “achiev[ing] uniformity in the
administration of veterans’ benefits and protect[ing] the
Administrator from expensive and time-consuming
litigation…would not be impaired. Rose v Rose, 481 US
619, 641-642; 107 S Ct 2029; 95 L Ed 2d 599 (1987)
(emphasis added).
So stated Justice Scalia, speaking to the applicability of 38 USC § 211
as applied to a state court order forcing a disabled veteran to dispossess
himself of his veterans’ disability pay in order to pay a child support
order. Congress responded and changed 38 USC § 211 just after Rose
to do exactly what Justice Scalia referred to, i.e., explicitly exclude state
court jurisdiction altogether. See 38 USC § 511(a) (in 1988 in direct
response to Rose, reference in § 211(a) to courts “of the United States”
was removed and replaced with a separate sentence that excludes
review of benefits determinations as to “any other official or by any
court”). Moreover, the first sentence was changed to make it clear that

69a

RECEIVED by MSC 9/29/2020 10:44:57 PM

BRIEF IN SUPPORT OF RECONSIDERATION

opposed to the prior language which merely provided that the
“decisions of the Administrator” would be deemed final and conclusive
as to courts of the United States. These were fundamental changes in
the law that removed any doubt about the primacy and exclusivity of
jurisdiction over all claims for veterans’ benefits by both veterans and
their dependents.
Prior to 1988, federal law did not give the Secretary initial (and
therefore primary) jurisdiction to “decide all questions of law or fact”
regarding veterans’ benefits, and it limited the jurisdiction of the
Veterans Administration over claims to such benefits to federal courts
– “court[s] of the United States”.

See 38 USC § 211(a) (1970)

(emphasis added). Placing the primary and initial decision over all
questions of law and fact concerning the division of benefits to veterans
and dependents within the exclusive jurisdiction of the executive
agency created for that purpose and creating an internal and wholly
“federal” court system for review of that agency’s decisions, with a
linear appellate track straight to the Supreme Court, was a change in the
law designed to remove any doubts and uncertainties created by having
multiple concurrent jurisdictional decision-making authorities and

70a

RECEIVED by MSC 9/29/2020 10:44:57 PM

the Secretary primarily “shall decide all questions of law and fact”, as

necessary when considering a disabled veteran’s needs for his or her
own benefits and, consequently, any potential needs of his or her
dependents. See, e.g., Henderson v Shinseki, 562 US 428, 441; 131 S
Ct 1197; 179 L Ed 2d 159 (2011). As explained by one court, “[i]n
order to dissuade the judiciary from ignoring ‘the explicit language that
Congress used in isolating decisions of the Administrator from judicial
scrutiny,’…Congress overhauled both the internal review mechanism
and § 211 in the [Veterans Judicial Review Act ] VJRA. Pub. L. No.
100-687, 102 Stat. 4105.” Veterans for Common Sense v Shinseki, 678
F 3d 1013, 1021 (9th Cir 2012), cert denied 568 US 1086 (2013).
Congress has explicitly excluded other courts from second guessing
individual benefits determinations and adjudications – these types of
decisions have been deemed by Congress to be without the jurisdiction
of the courts and within the exclusive jurisdiction and final adjudicative
authority of the VA. Veterans for Common Sense, supra. Section 511
dictates that the Board of Veterans’ Appeals and the VA makes the
ultimate decision on claims for benefits and provides one, and only one,
reviewing body. Moore v Peake, 2008 US App Vet Claims LEXIS 1640
(2008).

71a

RECEIVED by MSC 9/29/2020 10:44:57 PM

therefore multiple states addressing the diverse considerations

intervene with the veteran’s disability benefits absent a decision by the
agency with exclusive jurisdiction over such claims, but it also created
an Article I Court (the United States Court of Appeals for Veterans
Claims) to exclusively review such decisions. See 38 USC §§ 7251 and
7261, respectively. See Public Law 100-687, November 18, 1988, 38
USC § 7251 (“There is hereby established, under Article I of the
Constitution of the United States, a court of record to be known as the
United States Court of Appeals for Veterans Claims.”).
Finally, since Rose, supra, the Supreme Court of the United States
has confirmed what Justice Scalia and Justice White surmised in their
separate statements in that case, to wit, 38 USC § 5301 does in fact
apply to prohibit state court orders that force a veteran to use his or her
disability benefits to satisfy a state court order, even one that merely
makes the veteran pay a sum of money that will necessarily implicate
the restricted benefits. See Rose, 481 US at 642-644 (SCALIA, J.,
concurring), 644-647 (WHITE, J., dissenting). In Howell v Howell, 137
S Ct 1400, 1405-1406; 197 L Ed 2d 781 (2017), the Court addressed
this concern directly and held that all such orders are preempted and
that under 38 USC § 5301 state courts have no authority to vest these

72a

RECEIVED by MSC 9/29/2020 10:44:57 PM

Not only did Congress remove any doubt that state courts could not

form, such reimbursement and indemnification orders displace the
federal rule and stand as an obstacle to the accomplishment and
execution of the purposes and objectives of Congress. All such orders
are thus preempted.” Id. at 1406 (emphasis added).

The Court

reiterated that under preexisting federal law, only Congress could lift
the absolute preemption and give the state permission to count a
veteran’s disability as disposable income. Id. at 1404.
Indeed, Howell acknowledged that in some circumstances involving
disability pay that is received in lieu of waived retired pay the state may
allow division for purposes of support of dependents, see 137 S Ct at
1406 (citing Rose) and 42 USC § 659(a), (h)(1)(A)(ii)(V) (authorizing
the federal government to honor state court orders when there is
“income” being paid in the form of military disability retired pay (a
portion of retired pay owed to the veteran is replaced with “partial”
disability pay). But see 42 USC § 659(h)(1)(B)(iii) (excluding from
this federal allowance all regular disability pay paid to disabled
veterans with service-connected disability exceeding the retirement
allowance and/or with service-connected disabilities incurred prior to
eligibility for retirement). State courts may exercise jurisdiction and

73a

RECEIVED by MSC 9/29/2020 10:44:57 PM

benefits in anyone other than the beneficiary. “Regardless of their

spousal support award, but only up to the amount of his or her waived
retired pay. 42 USC § 659(a), (h)(1)(A)(ii)(V), (B)(iii); 5 CFR §
581.103 (2018). See also In re Marriage of Cassinelli (On Remand),
20 Cal App 5th 1267, 1277; 229 Cal Rptr 3d 801 (2018) (on remand
from the United States Supreme Court for consideration of Howell).
Howell reaffirmed that all other disability benefits are protected
unless Congress has made an exception. Id. at 1404-1406. Here, there
is no exception and thus, Petitioner’s benefits are protected by the
affirmative and sweeping prohibitions from “any legal or equitable
process whatever, either before or after receipt” found in 38 USC §
5301(a)(1).
No such federal permission exists in this case because Petitioner is
a permanently and totally disabled veteran who never attained time in
service sufficient to even be eligible for benefits that might be available
as a disposable asset subject to state court support orders.
This Court has recently confirmed the overarching principles in
Howell. State courts have always been preempted in this subject matter
unless federal law allows exercise of jurisdiction and authority over the

74a

RECEIVED by MSC 9/29/2020 10:44:57 PM

authority over veteran’s disability pay to satisfy a child support or

___ (April 29, 2020), Slip Opinion (Op) at 11-18. Moreover, the Court
applied 38 USC § 5301, recognizing that it jurisdictionally prohibited
the veteran from dispossessing himself of the benefits at issue and it
also prohibited state courts from entering orders that would force the
veteran to use these benefits to pay orders in contravention of federal
law. Id. at 2-3, 19 (overruling Megee v Carmine, 290 Mich App 551,
574-575; 802 NW2d 669 (2010)).
Petitioner has presented the Court with the facts demonstrating that
there is a fundamental jurisdictional defect in the exercise by the state
over the disposition of his federal veterans’ disability benefits. As this
Court has recognized where another governmental agency has primary
(and in this case exclusive federal) jurisdiction over a claim or issue,
the state courts lack subject matter jurisdiction to enter any rulings that
would contravene the disposition of that claim by the agency which
retains such jurisdiction. Travelers v Detroit Edison, 465 Mich 185,
204; 631 NW2d 733 (2001) (citing Bowie v Arder, 441 Mich 23, 39;
490 NW2d 568 (1992) and stating “[a] court either has, or does not have,
subject-matter jurisdiction over a particular case.”). State courts are
precluded “from inquiring into and adjudicating” claims and issues that

75a

RECEIVED by MSC 9/29/2020 10:44:57 PM

federal benefits at issue. Foster v Foster, ___ Mich ___; ___ NW2d

that purpose. Id. at 194. As the United States Supreme Court has
recognized, the doctrine of primary jurisdiction applies to federal
agencies that have been tasked with exercising the full scope of
Congress’s enumerated powers under the Constitution. Id.
As jurisdictional defects may be raised at any time, even collaterally
or after the time for appeal has passed, and a court must always, sua
sponte, question its own authority and jurisdiction over a particular
matter, see Straus v Governor, 459 Mich 526, 532; 592 NW2d 53
(1999) (emphasis added), citing Fox v Univ of Michigan Bd of Regents,
375 Mich 238, 242; 134 NW2d 146 (1965), Petitioner respectfully
submits that here, as the Court of Appeals’ opinion contravened the
primary and exclusive jurisdiction of a federal agency designated by
Congress as the sole arbiter of claims for veterans’ benefits,
reconsideration is warranted. The Court of Appeals’ opinion cannot
stand, regardless of the time that has passed or the multitude of actions
that have been taken against Petitioner in his quest to correct the grave
errors of law that have occurred and that have severely prejudiced his
constitutional rights.

76a

RECEIVED by MSC 9/29/2020 10:44:57 PM

reside solely and exclusively within the federal agency designated for

jurisdiction over the subject matter and those acts are simply void ab
initio. As Justice Potter of this Court explained long ago, drawing on
the decisions of the United States Supreme Court concerning same:
Jurisdiction, in its fullest sense, is not restricted to the
subject-matter and the parties. If the court lacks
jurisdiction to render, or exceeds its jurisdiction in
rendering, the particular judgment in the particular case,
such judgment is subject to collateral attack, even though
the court had jurisdiction of the parties and of the subjectmatter. The supreme court of the United States, the
ultimate authority, has so ruled in Windsor v McVeigh, 93
US 274; Ex Parte Rowland, 104 US 604; Ex Parte Lange,
18 Wall (85 US) 163.
Driver v Union Indus Trust & Savings Bank, 264 Mich 42,
50-51; 249 NW 459 (1933) (POTTER, J.) (emphasis
added) (some internal citations omitted).
Later cases in Michigan adhere to this three-pronged query concerning
the exercise of proper jurisdiction and authority. See, e.g., Straus, 459
Mich at 532; Fox, 375 Mich at 242. See also Bowie v Arder, 441 Mich
23, 39; 490 NW2d 568 (1992).
A state court that “transcend[s] the limits of its authority” in
rendering a judgment issues a void decree. Windsor v McVeigh, 93 US
274, 282; 23 L Ed 914 (1876). Such a decree can neither be consented
to (as the federal statute expressly provides here in the form of 38 USC

77a

RECEIVED by MSC 9/29/2020 10:44:57 PM

When a court exceeds it jurisdiction or authority it acts without

contempt or other penalty. In re Estate of Fraser, 288 Mich 392, 394;
285 NW 1 (1939); Bowie, 441 Mich at 57. See also Cooley,
Constitutional Limitations (7th Ed) (1903), pp 575-576, stating:
If [the court] assumes to act in a case over which the law
does not give it authority, the proceeding and judgment
will be altogether void, and the rights of property cannot
be divested by means of them…. [C]onsent can never
confer jurisdiction: by which is meant that the consent of
parties cannot empower a court to act upon subjects
which are not submitted to its determination and judgment
by the law.”
***
[W]here a court by law has no jurisdiction of the subjectmatter of a controversy, a party whose rights are sought to
be affected by it is at liberty to repudiate its proceedings
and refuse to be bound by them, notwithstanding he may
once have consented to its action, either by voluntarily
commencing the proceeding as plaintiff, or as defendant
by appearing and pleading to the merits, or by any other
formal or informal action. This right he may avail himself
of at any stage of the case; and the maxim that requires
one to move promptly who would take advantage of an
irregularity does not apply here, since this is not mere
irregular action, but a total want of power to act at all….
[T]here can be no waiver of rights by laches in a case
where consent would be altogether nugatory. (emphasis
added).

There is no question that the state has exceeded its jurisdiction and
authority in this case. See 38 USC § 511(a). The Court of Appeals’

78a

RECEIVED by MSC 9/29/2020 10:44:57 PM

§ 5301(a)(3)), nor can it serve as the basis for a subsequent finding of

precluded from challenging the state’s power in this case is
jurisdictional error and can neither be waived or surrendered. Not one
jot or tittle of state sovereignty remains to divert or otherwise decide
the use of Petitioner’s benefits. They are also protected by affirmative
and positive federal legislation. 38 USC § 5301(a)(1). See also United
States v Hall, 98 US 343, 349-355; 25 L Ed 180 (1878). The Court, in
1878, stated of canvassing the anti-attachment provisions in veterans’
benefit legislation that “[t]hese diverse selections from the almost
innumerable list of acts passed granting pensions are sufficient to prove
that throughout the whole period since the Constitution was adopted it
has been the policy of Congress to enact such regulations as will secure
to the beneficiaries of the pensions granted the exclusive use and benefit
of the money appropriated and paid for that purpose. Id. at 352
(emphasis added).
All of the legislative authority concerning the provision of veterans’
benefits and their disposition are a direct exercise by Congress of its
enumerated powers over military affairs. Id. at 346-356. See also
Hines v Lowrey, 305 US 85, 90-91; 59 S Ct 31; 83 L Ed 56 (1938);
Wissner v Wissner, 338 US 655, 660-661; 70 S Ct 398; 94 L Ed 424

79a

RECEIVED by MSC 9/29/2020 10:44:57 PM

conclusion that Petitioner is jurisdictionally and substantively

L Ed 2d 575 (1961); Free v Bland, 369 US 663, 666; 82 S Ct 1089; 8 L
Ed 2d 180 (1962); McCarty v McCarty, 453 US 210, 220-223; 101 S
Ct 2728; 69 L Ed 2d 589 (1981); Ridgway v Ridgway, 454 US 46, 5455; 102 S Ct 49; 70 L Ed 2d 39 (1981); Mansell v Mansell, 490 US 581,
587; 109 S Ct 2023; 104 L Ed 2d 675 (1989); Howell v Howell, 137 S
Ct 1400, 1404; 197 L Ed 2d 781 (2017). As this Court has most recently
acknowledged in its unanimous opinion, federal law preempts state law
control over military benefits absent congressional authority. Foster v
Foster, __ Mich ___; ___ NW2d ____, (April 29, 2020), Slip Opinion
at 11-18 and n 51. See also Foster v Foster (On Second Remand),
Unpublished Per Curiam Opinion of the Michigan Court of Appeals,
issued July 30, 2020 (Docket No. 324853) (holding simply that “[s]tate
courts are deprived of subject-matter jurisdiction when principles of
federal preemption are applicable” and therefore, due to the principles
of federal preemption of state law concerning veterans’ disability
benefits, the disabled veteran there “did not engage in an improper
collateral attack on the consent judgment with respect to the offset
provision” and the subsequent contempt orders requiring him to pay his

80a

RECEIVED by MSC 9/29/2020 10:44:57 PM

(1949); United States v Oregon, 366 US 643, 648-649; 81 S Ct 1278; 6

and void. Id. at 2.
Federal preemption goes to the subject matter jurisdiction of the
state courts because where federal preemption applies, the federal
government has retained its sovereign authority over the issue. The
state court has no authority to exceed its constitutional jurisdiction in
such matters. The delegated powers of the federal government have not
been surrendered to the states. The states may only exercise jurisdiction
and authority over those matters that have been granted to it by
Congress. If the rule were otherwise, then 50 states could have 50
different rules (or even one consistent but erroneous rule) than that
established as the Supreme Law under the Constitution. Justice Story
described this as a situation that would be “truly deplorable”. Martin v
Hunter’s Lessee, 14 US 304, 348; 4 L Ed 97 (1816).
Against this backdrop the conclusion is quite simple. Not only has
Congress been delegated absolute preemptive authority over these
matters, but in 1988, after the Rose decision that the Court of Appeals’
relies on here to assert state authority over the federal benefits,
Congress amended 38 USC § 211 (now 38 USC § 511) to remove any
of the reservations concerning potential concurrent state jurisdiction

81a

RECEIVED by MSC 9/29/2020 10:44:57 PM

former spouse using his restricted veteran’s disability benefits were null

US at 628. A decision by a state court that forces a disabled veteran to
use his or her restricted benefits to pay for support of dependents, is a
decision that necessarily interferes with and ostensibly supersedes
(albeit erroneously) the primary and exclusive jurisdiction of the VA.
Any decision by the Secretary under its authority as provided in 38
U.S.C. § 511(a) to provide benefits is prima facie insulated from any
subsequent state court authority with respect to those benefits. That
provision states that “[t]he Secretary shall decide all questions of law
and fact necessary to a decision by the Secretary under a law that affects
the provision of benefits by the Secretary to veterans or the dependents
or survivors of veterans.” (emphasis added). The second sentence of
that provision continues: “[T]he decision of the Secretary as to any
such question shall be final and conclusive and may not be reviewed by
any other official or by any court, whether by an action in the nature of
mandamus or otherwise.” (emphasis added).
Jurisdiction is exclusively vested in the Secretary as to “any court”.
Federal law nowhere allows for the benefits at issue to be without the
jurisdictional protections afforded by federal law and Congress’s
assurance that only the Secretary can make the initial benefits

82a

RECEIVED by MSC 9/29/2020 10:44:57 PM

over claims by dependents for veterans’ benefits. See Rose v Rose, 481

them in a manner that differs from the original disposition.
Any claim or decision that relates to or involves the disposition of a
veterans’ federal disability benefits necessarily affects a decision that
has already been made by the VA Secretary concerning a claim for
those benefits by the veteran and his or her dependents. 38 USC §
511(a). The VA’s decision as to how much of those benefits should be
paid to the veteran and the reasons those payments are made cannot be
interfered with or disrupted by a contrary ruling by any other person or
court. Id. This disrupts the federal appropriation, the congressional
scheme for military compensation, and most importantly the delegated
and exclusive powers of Congress over military affairs. To be clear,
any decision by a state court that would cause a diversion of these
protected funds away from the federally designated beneficiary (usually
the veteran) to any other person or entity would be an extrajurisdictional act and in direct conflict with the provisions of 38 USC §
511, the VJRA and the anti-attachment provision, 38 USC § 5301. So,
to conclude that a state court is without authority, is to say that it has
no jurisdiction, and here, that is constitutional jurisdiction, to issue a
contrary ruling. See Howell, 137 S Ct at 1405-1406.

83a

RECEIVED by MSC 9/29/2020 10:44:57 PM

determination and, necessarily, any subsequent request to apportion

courts from entering indemnification or direct reimbursement orders
that invade the restricted assets, 38 USC § 5301 provides an additional
layer of positive protection with its expansive prohibition on “any legal
or equitable process whatever, either before or after receipt.” (emphasis
added).
Respondent can point to no direct, federal law that allows the state
to count or otherwise include Petitioner’s benefits as disposable assets
or available income for purposes of satisfying a child support order.
Congress unequivocally removed any ambiguity when it provided in 38
USC § 511 after Rose that the Secretary of Veterans Affairs “shall
decide all questions of law and fact” with respect to claims for benefits
by both the veteran and their dependents, and further removed any
doubt that the exclusivity of jurisdiction applied to any court that might
otherwise preside over or review a claim for the veteran’s disability
benefits.

84a

RECEIVED by MSC 9/29/2020 10:44:57 PM

Finally, as an affirmative protection that directly prohibits state

The 2017 unanimous opinion of the United States Supreme Court in
Howell v Howell, 581 US ___; 137 S Ct 1400; 197 L Ed 2d 781 (2017)
137 S Ct 1400 (2017) explicitly ruled that the states were (and always
have been) preempted from contradicting federal statutory law that
governed the disposition of veterans’ disability benefits. “[F]ederal law,
as construed in McCarty, completely preempted the application of state
community property law to military retirement pay” and stating that
“McCarty, with its rule of federal preemption, still applies.” (emphasis
added). Howell, supra at 1403-1404.
As this Court recently confirmed in Foster v Foster, where an
apportionment occurs by virtue of settlement of the veteran’s disability
claim, federal law prohibits state courts from asserting authority or
control over the decision in a manner that would be contrary to the
decision made by the Veterans Administration. The reason for this is
simple. Under 38 USC § 511, a claim for veterans’ benefits is exclusive
and final and may not be contradicted by any other court or tribunal.
Moreover, the Court noted that the plain and unambiguous language
of 38 USC § 5301 directly applies to jurisdictionally bar all state courts

85a

RECEIVED by MSC 9/29/2020 10:44:57 PM

CONCLUSION

whether before or after receipt – in other words, no legal or equitable
process can be used to either redirect payment (through garnishment,
attachment, levy or seizure – before receipt by the beneficiary), or direct
payment by the beneficiary after receipt by him or her of these benefits.
It simply cannot be done and no contractual agreement or other form of
coercive mechanism can be instituted to get around this absolute
prohibition. See 38 USC § 5301(a)(1), (3)(A) and (C).
Because federal law has always preempted state law in this very
specific circumstance, any state-court domestic relations order
awarding support (child and/or spousal) would be void and
unenforceable, both going forward and retroactively. In this case,
Petitioner’s federal disability benefits are specifically excluded from
consideration as remuneration for employment, and therefore as
income, by 42 USC § 659(a); (h)(1)(A)(ii)(V); and (h)(1)(B)(iii). As
such, these benefits are jurisdictionally protected from any legal
process whatever by 38 USC § 5301. Federal law is very clear and has
been strengthened to exclude state courts from interfering with the
disposition of veterans’ disability benefits.

86a

RECEIVED by MSC 9/29/2020 10:44:57 PM

from attempting to dispossess veterans of their disability benefits

law acts in excess of its jurisdiction. Such rulings, and the judgments
they spring from, including all subsequent contempt and related orders
are void ab initio and exposed to collateral attack. The United States
Supreme Court has said as much: “That a state court before which a
proceeding is competently initiated may – by operation of supreme
federal law – lose jurisdiction to proceed to a judgment unassailable on
collateral attack is not a concept unknown to our federal system.” Kalb
v Feurstein, 308 US 433, 440, n 12; 60 S Ct 343; 84 L Ed 370 (1940);
Davis v Wechsler, 263 US 22, 24-25; 44 S Ct 13; 68 L Ed 143 (1923);
and Hines v Lowrey, 305 US 85, 90, 91; 59 S Ct 31; 83 L Ed 56, 60
(1938) (applying the same principle to Congress’ exercise of its
Military Powers, the enumerated powers under which Congress
provides the veterans’ benefits at issue in this case).
“The States cannot, in the exercise of control over local laws and
practice, vest state courts with power to violate the supreme law of the
land.” Kalb, 308 US at 439. “States have no power…to retard, impede,
burden, or in any manner control, the operations of the constitutional
laws enacted by Congress to carry into execution the powers vested in
the general government.” McCulloch v Maryland, 17 U.S. (4 Wheat)

87a

RECEIVED by MSC 9/29/2020 10:44:57 PM

A state court that rules incorrectly on a matter preempted by federal

Absent such power, any attempt by state courts to impede the operation
of federal laws must be considered a nullity and void. Kalb, supra.
This Court has the constitutional authority and indeed the duty to
say what federal law requires and to abide by that law pursuant to the
Supremacy Clause of the United States Constitution. Betty v Brooks &
Perkins, 446 Mich 270, 276; 521 NW2d 518 (1994) (stating that
“[w]here federal questions are involved [this Court] is bound to follow
the prevailing opinions of the United States Supreme Court.”) (internal
citations omitted); City of Detroit v Ambassador Bridge, 481 Mich 29,
36; 748 NW2d 221 (2008). Indeed, where a state law proceeding is
preempted by federal law the state court lacks subject matter
jurisdiction and authority to act in a manner contrary to the prevailing
federal rule. Ryan v Brunswick Corp, 454 Mich 20, 27; 557 NW2d 541
(1997), overruled on other grounds by Sprietsma v Mercury Marine,
537 US 31; 123 S Ct 518; 154 L Ed 2d 466 (2002). It is necessary for
this Court to address Court of Appeals’ opinions “that misapplied
constitutional

principles

and

United

States

Supreme

Court

precedent….” People v Bryant, 491 Mich 575, 583, n 5; 822 NW2d
124 (2012). See also Fletcher v Fletcher, 447 Mich 871, 881; 526

88a

RECEIVED by MSC 9/29/2020 10:44:57 PM

316, 436; 4 L Ed 579 (1819) (MARSHALL, CJ) (emphasis added).

interprets, or applies the law, it commits legal error that the appellate
court is bound to correct.”).
Since providing veterans’ benefits is a function reserved for
Congress under Article I of the Constitution, see Wissner v Wissner,
338 US 655, 660-661; 70 S Ct 398; 94 L Ed 424 (1950); United States
v Oregon, 366 US 643, 649; 81 S Ct 1278; 6 L Ed 2d 575 (1961);
Johnson v. Robison, 415 U.S. 361, 376, 385; 94 S Ct 1160; 39 L Ed 2d
389 (1974); and McCarty, 453 US at 236, the issue involves more than
the jurisdiction of a state court over ordinary divorce proceedings in
which there are no constitutionally protected property rights. Cushman
v Shinseki, 576 F 3d 1290, 1296-1297 (Fed Cir 2009) (veterans’
benefits are constitutionally protected property rights), following
Mathews v Eldridge, 424 US 319, 332; 96 S Ct 893; 47 L Ed 2d 18
(1976) (disability benefits are constitutionally protected property
rights). Petitioner is and continues to be deprived of his fundamental
constitutional rights based on the orders of the state court that lacked
the constitutional and jurisdictional authority to issue them.

89a

RECEIVED by MSC 9/29/2020 10:44:57 PM

NW2d 889 (1994) (stating: “When a court incorrectly chooses,

assumption of authority over a subject within the sole realm of
Congress, premises deemed to be among the most respected of those
within which Congress exercises its limited, but reserved powers.
McCarty, 453 US at 236, citing Rostker v Goldberg, 453 US 57, 64-65;
101 S Ct 2646; 69 L Ed 2d 478 (1981). “[P]erhaps in no other area has
the Court accorded Congress greater deference.” Rostker, supra. As
with all matters of federal preemption, where Congress acts in
furtherance of its constitutional powers under Article I, state law must
yield. Ridgway, 454 US at 55.
Simply put, the state has no authority or jurisdiction over federally
protected veterans’ benefits. Since the Constitution first delegated to
Congress the authority to provide for national defense, “Congress has
directly and specifically legislated in the area” concerning the division
of veterans’ benefits as property. United States v Oregon, 366 US at
649. See also Mansell, 490 US at 587. The provisioning of these
benefits has been deemed by the Court as “a legitimate one within the
congressional powers over national defense”. Wissner, 338 US at 660661. Thus, “a state divorce decree, like other law governing the
economic aspects of domestic relations, must give way to clearly

90a

RECEIVED by MSC 9/29/2020 10:44:57 PM

Here, the vitiating defect lies at the very heart of the state court’s

added). See also Hillman v Maretta, 569 US 483, 491; 133 S Ct 1943;
186 L Ed 2d 43 (2013).
MCR 7.311(G) provides that motions for reconsideration are subject
to the restrictions contained in MCR 2.119(F)(3). That rule in turn
states that “without restricting the discretion of the court, a motion for
rehearing or reconsideration which merely presents the same issues
ruled on by the court, either expressly or by reasonable implication, will
not be granted. The moving party must demonstrate a palpable error by
which the court and the parties have been misled and show that a
different disposition of the motion must result from correction of the
error.”
Here, since this Court’s recent decision in Foster v Foster has
confirmed that federal preemption applies unless Congress says
otherwise, and Congress clearly strengthened the law to jurisdictionally
exclude state courts from making a disposition of a veteran’s disability
benefits in a manner contrary to the determination made by the agency
with primary and exclusive jurisdiction to do so, palpable error has
occurred in binding Petitioner to a void state court order.

91a

RECEIVED by MSC 9/29/2020 10:44:57 PM

conflicting federal enactments.” Ridgway, 454 US at 55 (emphasis

Petitioner respectfully requests this Court to grant his motion for
reconsideration and consider his appeal of the Court of Appeals’
opinion on the merits.
Respectfully submitted by:
_________________________
Carson J. Tucker (P62209)
Lex Fori, PLLC for and on
behalf of Trinity Advocates
Attorneys for Petitioner
117 N. First St., Suite 111
Ann Arbor, MI 48104
(734) 887-9261

Dated: September 29, 2020

92a

RECEIVED by MSC 9/29/2020 10:44:57 PM

RELIEF REQUESTED

In accordance with Administrative Order No. 2019-6, this brief
contains 5,067 words (as identified by the Microsoft Word “word
count” function) and was prepared using the proportional font typeface
Times New Roman set at 14-point.

93a

RECEIVED by MSC 9/29/2020 10:44:57 PM

CERTIFICATE OF COMPLIANCE

